U.S. Small Business Administration
Office of Inspector General


       Semiannual Report to Congress
                  Fall 2011




     April 1, 2011 – September 30, 2011
                                     U.S. SMALL BUSINESS ADMINISTRATION
                                        OFFICE OF INSPECTOR GENERAL
                                           WASHINGTON, D.C. 20416

I am pleased to present the U.S. Small Business Administration (SBA) Office of Inspector General’s (OIG)
Fall 2011 Semiannual Report to Congress, which provides a summary of the OIG’s activities from
April 1, 2011 to September 30, 2011. As our statistics indicate, the OIG’s efforts to eliminate fraud, waste, and
abuse in SBA programs during this period continues to significantly benefit taxpayers.

During this reporting period, the OIG issued 9 reports containing 34 recommendations for improving SBA
operations and reducing fraud and unnecessary losses in the Agency’s programs. In addition, OIG investigations
resulted in 44 indictments and 30 convictions. Overall, the OIG achieved monetary recoveries and savings of
nearly $43 million from recommendations that funds be put to better use agreed to by management, disallowed
costs agreed to by management, court ordered and other investigative recoveries and fines, and loans or contracts
not made as a result of investigations and name checks.

In achieving these results, the OIG dedicated its auditing and investigative resources toward the principal program
areas of the SBA. A few noteworthy reviews included in this report are highlighted below.

   On one audit, we found that the SBA did not properly fund at least one relevant information technology (IT)
    and software contract because it obligated $3.151 million during FY 2009 and FY 2010 by issuing contract
    modifications without identifying specific requirements for IT hardware and software. Because the SBA did
    not use these obligated annual funds to purchase IT hardware or software during FY 2009 and FY 2010, we
    determined that the SBA was inappropriately obligating annual funds that otherwise would not have been
    available for use in a subsequent fiscal year.

   In another audit, originating from a complaint, we found that the lender did not adequately assess repayment
    ability when the lender accepted unrealistic projected annual revenue figures as a basis for demonstrating the
    ability of the certain franchises to repay their debts. As of December 2010, there were 10 loans with an
    aggregated outstanding SBA balance of $2.1 million that had been transferred to liquidation. We
    recommended that the SBA seek recovery of the loan guaranties, flag all Banco Popular HLC loans in the
    Loan Accounting System to ensure the identified underwriting deficiencies are considered in the event of
    future default, and that the SBA implement a plan to ensure the completeness and accuracy of data pertaining
    to existing franchise loans.

   An additional report identified documentation deficiencies found in 24, or 40 percent, of a sample of sixty
    7(a) Recovery Act loans reviewed, which resulted in inappropriate or unsupported loan approvals of
    approximately $14.2 million. Based on the sample results, we estimated that at least 1,996 of the loans in the
    possible universe of 6,467 were not originated and closed in compliance with SBA's policies and procedures.
    While most of these loans have not gone into default, the true scope of the loss to the government is unknown,
    but could potentially result in at least $869.5 million in inappropriate or unsupported loan approvals.

I would like to thank the OIG’s employees for their outstanding efforts to promote economy, efficiency,
effectiveness, and integrity in SBA programs and operations. We look forward to continuing to work with
Administrator Mills and SBA’s management to address the issues and challenges facing the agency.




Peggy E. Gustafson
Inspector General
This page intentionally left blank.
                                                          Table of Contents


Overview of SBA and the OIG .................................................................................................................. 1

Small Business Access to Capital ............................................................................................................. 2

Disaster Loan Program.............................................................................................................................. 7

Small Business Development, Contracting, Education and Training ............................................... 11

Agency Management................................................................................................................................ 14

Other Significant OIG Activities............................................................................................................. 16

Statistical Highlights................................................................................................................................ 18

Appendix I: OIG Reports Issued April 1 - Sept. 30, 2011................................................................... 22

Appendix II: OIG Reports with Questioned Costs.............................................................................. 24

Appendix III:OIG Reports with Recommendations that Funds be put to Better Use.................... 25

Appendix IV: OIG Reports with Non-Monetary Recommendations ............................................... 26

Appendix V: Reports from Prior Periods with Overdue Management Decisions .......................... 27

Appendix VI: Reports Without Final Action as of September 30, 2011 .......................................... 28

Appendix VII: Summary of Significant Recommendations from Prior Semiannual Reporting
Periods without Final Action as of September 30, 2011 ..................................................................... 31

Appendix VIII: Summary of Significant Recommendations April 1 - Sept.30, 2011 ...................... 43

Appendix IX: Cosponsored and Other Activities April 1 - Sept. 30, 2011 ....................................... 46

Appendix X: Legal Actions Summary April 1 - Sept. 30, 2011 .......................................................... 49

Appendix XI: Results of External Peer Reviews ................................................................................. 56

Appendix XII: Office of Inspector General Organization .................................................................. 57

Appendix XIII: Office of Inspector General Organization Chart...................................................... 59
This page intentionally left blank.
                                Overview of SBA and the OIG

The Small Business Administration

The mission of the Small Business Administration (SBA) under the Small Business Act, as amended, is to
maintain and strengthen the Nation’s economy by enabling the establishment and vitality of small
businesses and assisting in the economic recovery of communities after disasters. The Agency’s
2011-2016 strategic plan has three overarching goals:

     Growing businesses and creating jobs
     Building an SBA that meets needs of today’s and tomorrow’s small businesses
     Serving as the voice for small business

The SBA is organized around four key functional areas: financial assistance (e.g., loan programs);
contracting assistance; technical assistance (e.g., entrepreneurial development), and disaster assistance.
The Agency also represents small businesses through an independent advocate and an ombudsman. SBA
headquarters is located in Washington, D.C., while its business products and services are delivered with
the help of 10 regional offices, 68 district offices, their corresponding branch offices, 4 disaster field
offices, and a vast network of resource partners in all 50 states, the District of Columbia, Puerto Rico,
American Samoa, the U.S. Virgin Islands, and Guam.

The Office of Inspector General

Pursuant to the Inspector General Act of 1978 (the IG Act), as amended, the Office of Inspector General
(OIG) provides independent, objective oversight to improve the integrity, accountability, and performance
of the SBA and its programs for the benefit of the American people. The OIG seeks to improve SBA
programs by identifying key issues facing the Agency, ensuring that corrective actions are taken, and
promoting a high level of integrity. The Office’s efforts and accomplishments during the second half of
Fiscal Year 2011 focused on the critical risks facing the SBA, including (1) risks due to limited oversight
and controls in SBA lending programs; (2) risks affecting SBA’s oversight of contracts for small and
disadvantaged businesses; and (3) risks associated with the SBA’s information security controls and other
operations.

Audit and other reports issued by the OIG during this reporting period are listed in Appendix I.
Investigative actions are summarized in Appendix X. Copies of OIG reports and other work products are
available on the OIG’s website at http://www.sba.gov/office-of-inspector-general.




                                                    1
                             Small Business Access to Capital

The SBA has a financial assistance portfolio of guaranteed and direct loans of nearly $100 billion. The
Agency’s largest lending program, the Section 7(a) Loan Guaranty program, is the agency’s principal
vehicle for providing small businesses with access to credit that cannot be obtained elsewhere. This
program relies on numerous outside parties (e.g., borrowers, loan agents, and lenders) to complete loan
transactions, with approximately 80 percent of loans being made by lenders to whom SBA has delegated
loan-making authority. Additionally, the SBA has centralized many loan functions and reduced the
number of staff performing these functions, placing more responsibility on, and giving greater
independence to, its lenders. As a result, the OIG continues to identify weaknesses in the SBA’s lender
oversight process that has increased proportionally with the greater independence granted to the lenders.

The SBA’s 504 Loan Program provides small businesses with long-term, fixed-rate financing for the
purchase of land, buildings, machinery, and other fixed assets. Local economic development
organizations approved by SBA are known as Certified Development Companies (CDCs). The CDCs
package, close and service these loans, which are funded through a mix of funds from private sector
lenders, proceeds from the sale of SBA-guaranteed debentures, and borrower equity investment.

The Microloan Program provides small ($50,000 or less), short-term loans and technical assistance to
small business concerns as well as non-profit child-care centers through SBA-funded, intermediary
lenders. These lenders are non-profit, community-based organizations with experience in lending and
providing management and technical assistance to businesses.

Through the Small Business Investment Company (SBIC) Program, the SBA licenses and makes funds
available to venture capitalists known as SBICs. The SBICs lend or otherwise invest in small businesses
using participating securities made up of contributions from SBA and private investors or funds generated
through the sale of SBA-guaranteed debentures.

Audit of Purchased 7(a) Recovery Act Loans Results in Questioned Costs

The OIG continued its review of purchased 7(a) Recovery Act loans during this reporting period. The
American Recovery and Reinvestment Act (Recovery Act) provided the SBA with $730 million to
expand the agency’s lending and investment programs and create new programs to stimulate lending to
small businesses. As directed by this Act, the SBA temporarily increased the maximum guaranty that
SBA would offer on most 7(a) loans to 90% of loan value. Our examination focused on whether
lenders had properly originated and closed loans, that later went into default, in accordance with SBA
rules and regulations and commercially prudent lending standards.

Our review identified four early-defaulted loans that were approved for $500,000 or more that had been
purchased as of September 30, 2010. We found that the SBA had improperly honored its guaranty on
three of the four loans when full denial of the guaranty should have been pursued due to material
noncompliance with SBA requirements, such as:

      Inadequate verification of equity injection;
      Inadequate verification of financial information;




                                                    2
                              Small Business Access to Capital

      Inadequate business valuation;
      Questionable repayment ability, and
      Inappropriate change of ownership.

In a subsequent report, we identified five additional early-defaulted loans that resulted in questioned costs
of $2.7 million. Under the IG Act, Questioned Costs are those questioned by the OIG because of:

   (A) an alleged violation of a provision of a law, regulation, contract, grant, cooperative agreement, or
       other agreement or document governing the expenditure of funds;
   (B) a finding that, at the time of the audit, such cost is not supported by adequate documentation, or
   (C) a finding that the expenditure of funds for the intended purpose is unnecessary or unreasonable.

These five loans were part of a judgmental sample of 25 Recovery Act loans, approved for $500,000 or
more, that had been purchased as of September 30, 2010. Of the total $2.7 million questioned in this
report, we recommended recovery of approximately $1 million, while the remaining $1.7 million cannot
be recovered because the deficiencies are attributed to the SBA's origination of these loans, not the
lenders.

Audit of Recovery Act 7(a) Loans Identifies Documentation Deficiencies in Origination

During this reporting period, the OIG issued another in a series of reports related to the origination of
loans made under the Recovery Act. In the latest report, we identified documentation deficiencies in
twenty-four of sixty 7(a) loans reviewed. This resulted in inappropriate or unsupported loan approvals of
approximately $14.2 million. The documentation in the loan files was inadequate to show that the loans
were made to creditworthy borrowers, met SBA's eligibility criteria, and had adequate evidence of equity
injection, use of proceeds, or Internal Revenue Service (IRS) verification. The results of the randomly
selected and statistically valid samples were projected to the universe of 6,467 7(a) Recovery Act loans
with gross loan approvals totaling approximately $3.9 billion. Based on the sample results, we estimated
that at least 1,996 of the loans in the universe were not originated and closed in compliance with SBA's
policies and procedures. This estimate suggested at least $869.5 million in inappropriate or unsupported
loan approvals. However, because many of these loans had not gone into default, the corresponding
amount of loss to the Government is not known.

Allegation of Lenders Improperly Originating SBA Guaranteed Loans Reviewed

The OIG conducted an audit based on a complaint alleging that lenders improperly originated SBA-
guaranteed loans made to Huntington Learning Center (HLC) franchises by approving loans based on
inflated gross revenue projections submitted by loan brokers on the SBA loan applications. The OIG
found that the complainant’s lender did not adequately assess repayment ability for 12 SBA-guaranteed
HLC franchise loans when approving the loans. Specifically, the lender accepted unrealistic projected
annual revenue figures that ranged from $483,000 to $650,025 as a basis for demonstrating the ability of
the HLC franchises to repay their debts. The lender disregarded relevant and available data, which
indicated that the franchises' revenue projections were unrealistic. This was due, in part, to the lender's
perception that these loans required a lesser degree of due diligence because of the established business
model of franchise systems. Had the lender complied with SBA’s requirements to assess the feasibility of
projections, the 12 loans should have been declined.


                                                     3
                              Small Business Access to Capital

As of December 2010, there were 10 loans with an aggregated outstanding SBA balance of $2.1 million
that had been transferred to liquidation. We recommended that the Agency seek recovery of the loan
guaranties, less any recoveries, paid in connection with the 10 defaulted loans. We also recommended
that the SBA flag all Banco Popular HLC loans in the Loan Accounting System to ensure the identified
underwriting deficiencies are considered in the event of future default. The SBA agreed to review the 10
defaulted loans and seek recovery as appropriate, and to flag all HLC franchise loans originated by Banco
Popular to ensure that they receive heightened scrutiny if submitted for purchase.

We also noted that the SBA’s loan database did not accurately track franchise loans guaranteed by the
Agency. The incomplete nature of franchise loan data negatively affects the Agency’s ability to assess
whether franchise loans presented a higher than average risk of financial loss, and identify potential risks
with certain franchise brands. This data reliability issue could also negatively influence decisions made
by lenders for loan approval and prospective borrowers considering franchise opportunities. The OIG
recommended that the SBA implement a plan to ensure the completeness and accuracy of data pertaining
to existing franchise loans and those made in the future, but the agency only partially agreed with this
recommendation.

Multi-Year Loan Fraud Investigation Continues to Result in Legal Actions

In 2007, the arrests of 18 individuals by the OIG and U.S. Secret Service (USSS) marked the unraveling
of a major scheme in which a lender’s former executive vice president and others conspired to
fraudulently qualify loan applicants for SBA-guaranteed loans. The scheme involved at least 91
fraudulent loans totaling approximately $85 million. Thus far, 39 individuals have been indicted or
otherwise charged, and 31 have been convicted. Three defendants are international fugitives. To date,
court-ordered restitution, civil settlements, SBA recoveries of loan guaranties from the lender and
potential cost savings from the withdrawal of loan guaranties total approximately $98 million. The
following legal actions occurred during the recent six-month reporting period.

        A Michigan title company owner was sentenced to 12 months and one day incarceration and
         ordered to pay nearly $6 million in joint restitution. He had previously pled guilty to
         conspiracy to commit wire fraud in connection with a scheme in which a broker recruited
         “straw buyers” and conspired to obtain SBA-guaranteed loans through false statements. The
         title company owner, while employed as a closing agent for another title company, falsified
         loan disbursements, and equity injections on Department of Housing and Urban Development
         settlement statements. The fraudulent loan proceeds were then wire transferred to his
         employer’s company. This was a joint investigation with the USSS.

        In a related matter, a Michigan title company president was sentenced to one day of
         incarceration, four years of supervised release, and payment of an $8,000 fine after pleading
         guilty to conspiracy to commit wire fraud. The plea included the forfeiture of approximately
         $492,000 in illicit proceeds held by the president and her now defunct firm. The former
         president had conspired with others and developed a scheme, unbeknownst to lenders, to pay
         kickbacks to brokers and realtors if they used her title company to conduct loan closings. The
         OIG conducted this investigation jointly with the USSS.




                                                     4
                             Small Business Access to Capital

Criminals Defraud Loan Guaranty Program through an Array of Techniques

Criminals fraudulently obtain—or induce others to obtain—SBA-guaranteed loans through a variety of
techniques, such as submitting fraudulent documents, making fictitious asset claims, manipulating
property values, using loan proceeds contrary to the terms of the loans, and failing to disclose debts or
prior criminal records. The result is a greater chance of financial loss to the Agency and its lenders. The
following examples illustrate some of these criminal techniques.

     A California businessman was sentenced to 36 months in prison and 36 months supervised
      release. He was also ordered to pay nearly $2.4 million, including over $766,000 to SBA for
      fraudulently obtained loans and over $1.6 million to victim companies that had leased restaurant
      equipment and real estate to him. The businessman had made false statements on three SBA loan
      applications by not disclosing two civil lawsuits that resulted in judgments against him, as well
      as numerous outstanding debts.

     Two Texas men were indicted for conspiracy to commit arson, use of fire to commit a felony,
      aiding and abetting, and conspiring to burn, and/or torch three business structures in order to
      fraudulently receive insurance proceeds. One of the men was also indicted individually for
      federal arson, aiding and abetting, and making false statements to a bank. The same man had
      received a nearly $1,725,000 SBA-guaranteed loan through a bank for the construction of a
      restaurant and gas station after failing to disclose that he had been arrested 22 times. This is a
      joint investigation with the Bureau of Alcohol, Tobacco, Firearms, and Explosives.

     A Utah business president and his partner pled guilty to money laundering after an investigation
      revealed that they had recruited “straw borrowers” and used the borrowers’ names and good
      credit to obtain four SBA loans and two regular bank loans totaling $335,000. Using the promise
      of future rewards, the two men caused the “straw borrowers” to submit documents indicating that
      they owned thriving businesses, when in fact the businesses only existed on paper. This
      investigation was based on a referral from the SBA Utah District Office and is being conducted
      jointly with the IRS Criminal Investigation Division (CID).

Loan Funds Diverted to Personal Accounts

The former vice president of a Missouri bank pled guilty to bank fraud after an investigation revealed that
he engaged in numerous fraudulent transactions involving both SBA and non-SBA loans in order to divert
funds to his personal accounts. His actions resulted in a nearly $452,000 loss to the bank. This is a joint
investigation with the Federal Deposit Insurance Corporation OIG and the Federal Bureau of
Investigation (FBI).




                                                    5
                              Small Business Access to Capital

False Identities and Documents Used to Obtain Credit

A former New Jersey bank manager was sentenced to 18 months in prison, 36 months’ probation, and
over $199,000 in restitution. He had helped secure loans for a group of Korean nationals who obtained
credit cards and loans (including SBA loans) from lending institutions by using false identities,
documents, and business names. For example, he falsified site visit forms on behalf of sham businesses,
causing the bank to originate two SBA-guaranteed loans totaling $150,000. He ultimately brokered 10
loans totaling approximately $800,000 with current losses of roughly $630,000. This was a joint
investigation with the IRS CID, the Englewood (New Jersey) Police Department, and the Bergen County
Prosecutor’s Office.

False Equity Injection Places Business Loan Programs at Risk

Equity (or capital) injection is a borrower’s own financial stake in a business. If an individual personally
has something at risk in the business, he or she is less likely to default on a loan. When required by
lenders to inject such money into projects financed by guaranteed loans, some borrowers try to avoid this
requirement by falsifying the amount or source of these injections, as demonstrated by the following
examples:

     An owner of a day care center in Georgia pled guilty to conspiracy to defraud the United States.
      In 2008, the center was supposedly sold via a loan package worth $3,175,000. However, the
      owner orchestrated the deal as a “straw” transaction with an unindicted co-conspirator pretending
      to be the borrower. The owner never intended to relinquish possession of the center and used the
      loan proceeds to continue to operate the business. She also caused the co-conspirator to falsely
      state that the sale would be supported by a $296,200 equity injection even though the borrower
      would provide no equity. This is a joint investigation with the FBI.

     Three individuals in Texas were indicted for bank fraud and conspiracy to commit bank fraud.
      The attorney was also charged with witness tampering. The individuals allegedly conspired to
      fraudulently induce two banks to make loans to one of them. At stake were a $1.835 million
      SBA-guaranteed loan to purchase a laundromat and two commercial loans, totaling over $1.3
      million, to purchase land. The individuals allegedly misrepresented assets, the source of the
      equity injection, and down payment funds. The attorney allegedly engaged in witness tampering
      by attempting to persuade one of the individuals to lie and withhold information if she were
      interviewed by the FBI at a later date. This is a joint investigation with the FBI.

     A Texas loan broker pled guilty to conspiracy to commit bank fraud. On 45 loan origination
      packages, she represented to financial institutions that the borrowers had made their required
      cash injections when they had not. She also instructed the borrowers to write checks to her
      company for the amounts of the required injections, photocopied and returned the checks to the
      borrowers, and presented the copies at the loan closings as evidence of payment. Both she and
      the borrowers knew the checks would not be cashed, and most of the borrowers did not have the
      funds in their accounts. The broker would receive one percent to three percent of the value of
      each loan closed. To date, approximately $8 million has been charged off by financial
      institutions and the SBA, and an additional $6.762 million is in liquidation. The three SBA loans
      totaled $3.7 million. This is a joint investigation with the FBI.


                                                     6
                                     Disaster Loan Program

The Disaster Loan Program plays a vital role in the aftermath of disasters by providing long-term,
low-interest loans to affected homeowners, renters, businesses of all sizes, and non-profit organizations.
There are two primary types of disaster loans: (1) physical disaster loans for permanent rebuilding and
replacement of uninsured disaster-damaged privately owned real and/or personal property, and
(2) economic injury disaster loans to provide necessary working capital to small businesses until normal
operations resume after a disaster. The Disaster Loan Program is particularly vulnerable to fraud and
unnecessary losses because loan transactions are expedited in order to provide quick relief to disaster
victims.

SBA’s Response to the Deepwater Horizon Oil Spill Could Have Been More Cost Effective

Beginning with the drilling rig explosion on April 20, 2010, and lasting for three months, the Deepwater
Horizon drilling off the coast of Louisiana was the largest accidental marine oil spill in the history of the
petroleum industry and the second widespread disaster to affect the Gulf Coast region within five years.
The spill caused extensive damage to marine and wildlife habitat as well as the Gulf’s fishing and tourism
industries. In response to a congressional request, the OIG reviewed SBA’s strategy for developing
economic relief to small business owners impacted by the Deepwater Horizon oil spill to determine
whether the agency’s disaster response was most cost effective and targeted toward the needs of those
concerned.

The U.S. Government identified British Petroleum (BP) as the responsible party, and committed to
holding the company accountable for all cleanup costs and other damages. However, it was unknown
how quickly BP could provide financial assistance to local businesses impacted by the disaster.
Governors from Louisiana, Alabama, Florida, and Mississippi petitioned SBA to declare this event an
economic injury disaster and provide financial assistance to the numerous small businesses affected. In
response to the Governors’ requests, in May 2010, SBA issues Economic Injury disaster declarations for
specific regions in the affected states.

Because the Deepwater Horizon oil spill was an extraordinary event, the Agency was not able to obtain
accurate projections of the number of businesses impacted by the disaster. Therefore, SBA relied upon
requests made by local and state government officials to determine where assistance was needed. In May
2010, SBA initially established 27 Business Recovery Centers (BRCs) in 4 states; however, the number
of open centers fluctuated during the six-month period they were operational. The SBA closed the last
BRC on November 18, 2010. During the six-month period in which they were operational, a significant
number of small businesses were contacted and informed of the availability of SBA assistance.
Ultimately, however, relatively few businesses sought SBA assistance.

As of February 9, 2011, the agency received 1,767 applications (822 were initially accepted at the BRCs)
for Economic Injury Disaster Loans (EIDLs) of which 410 were approved, totaling approximately $37.2
million. The EIDLs are working capital loans to help small businesses, small agricultural cooperatives,
and most private, non-profit organizations of all sizes meet their ordinary and necessary financial
obligations that cannot be met as a direct result of the disaster. An additional 1,098 prior disaster loans
were deferred. In contrast, BP indicated that by November 2010, they had received over 315,000 claims
of which 92,000 had been paid or approved for payments totaling $1.7 billion.




                                                     7
                                     Disaster Loan Program

The OIG concluded that the SBA's response to the Deepwater Horizon Oil spill did not appear to be most
cost effective. The Agency was slow to adjust staffing levels despite a continuously low workload. This
occurred because the Agency was tasked with maintaining a steady presence in the region, despite the
limited demand for SBA financial assistance. The OIG recommended that the agency establish (1)
performance metrics to assess workload and appropriate onsite staffing levels, and (2) guidelines for
monitoring onsite productivity and adjusting staffing levels in a timely manner.

SBA Did Not Consistently Make Appropriate Decisions to Release Collateral

An OIG review found that the SBA Disaster Loan Servicing and Processing Centers in Birmingham,
Alabama and El Paso, Texas did not consistently make appropriate decisions to release the Agency’s
security interest in collateral on active disaster loans. Based on a review of a statistical sample of
collateral releases, we determined that 55 of 120, or approximately 46 percent, of the collateral release
decisions made by the servicing centers, for collective property values of at least $3.1 million, were
inappropriate. As a result, the remaining collateral for some loans was not sufficient to protect the
Agency's interests because the loan balance exceeded the value of the property. The inappropriate
collateral release decisions occurred because the Agency did not perform a full collateral analysis, which
would have included obtaining an appraisal or other acceptable property valuation and evaluating whether
the retained collateral value was sufficient in relation to the outstanding loan balance. As a result of these
inappropriate collateral releases, we projected that at least $3.9 million of loan balances could be
insufficiently protected, exposing the Agency to a higher risk of loss. To resolve these deficiencies
effectively, the servicing centers should consistently perform a full collateral analysis to ensure that the
value of collateral retained is adequate to protect the loan balance.

OIG and Others Combat Fraud Years after Gulf Coast Hurricanes

In 2005, Hurricanes Katrina, Wilma, and Rita caused major loss of life and property destruction on the
Gulf Coast. In response, Federal agencies provided massive aid, with SBA approving billions of dollars
in disaster assistance loans. The need to disburse these loans quickly, however, may have created
opportunities for dishonest applicants to commit fraud.

The OIG, along with other law enforcement organizations, formed what is now known as the National
Center for Disaster Fraud (NCDF). From FY 2006 through FY 2011, the OIG, in conjunction with the
NCDF, has thus far produced 81 arrests, 95 indictments, and 87 convictions related to wrongdoing in
SBA’s Disaster Loan program for these three hurricanes. Moreover, OIG investigations in the disaster
area to date have resulted in over $5.5 million in court-ordered restitution and related recoveries. The
OIG has also assisted SBA in denying almost $4.5 million in loans to potentially fraudulent borrowers.

The following examples illustrate both OIG cases and the tactics used by criminals to take advantage of
Gulf Coast hurricane relief efforts.

     A Mississippi couple was indicted for conspiracy, wire fraud, and theft of government funds in
      connection with a $1 million disaster assistance loan that had been provided for the repair of
      business properties damaged by Hurricane Katrina. The couple allegedly did not use the loan
      proceeds as stated in the loan authorization agreement, submitted fraudulent receipts to SBA, and
      used nearly $390,000 of the loan proceeds to purchase a yacht.


                                                      8
                                   Disaster Loan Program

        This indictment resulted from a joint proactive NCDF investigation targeting individuals who
        make false claims for government disaster assistance. The investigation is being conducted
        jointly with the FBI

     A Texas man was sentenced to 15 months in prison and four years supervised release in
      connection with a $196,300 business loan for Hurricane Rita damage. He submitted fictitious
      receipts and estimates to SBA for equipment that had not been purchased. Moreover, on his SBA
      loan application, he lied about his criminal history, failing to disclose the fact that he had been
      arrested numerous times and convicted of various crimes, including possession of a controlled
      substance, burglary, resisting arrest, destruction of property, malicious mischief, burglary of a
      vehicle, and assault. Finally, a review of bank records revealed that he had used SBA loan
      funds to pay for his Chapter 13 bankruptcy, college tuition for his daughter, new furniture, a car
      for his wife, and loans to his family and friends. The investigation determined that he only spent
      approximately $50,000 of the $196,300 SBA loan on actual business property and expenses.

     A Louisiana church pastor was indicted for mail fraud and theft of government funds involving
      an SBA disaster loan provided following Hurricane Katrina. The $500,000 SBA loan was to be
      used for replacing equipment and rebuilding the church at which the pastor was employed at the
      time. He later requested and received a loan increase of nearly $464,000 due to rising
      construction costs, for a total loan amount of $963,900. Instead of using the loan funds for their
      intended purpose, the pastor allegedly purchased two luxury vehicles, two pieces of real estate,
      certificates of deposit, designer clothing, fine jewelry, and other items for his personal use.

Hurricanes Ike and Gustav Rebuilding Efforts Attract Fraud

In 2008, Hurricanes Ike and Gustav became two of the costliest natural disasters in U.S. history. As in
the case of other hurricanes, the need to approve and disburse SBA disaster assistance loans quickly may
have contributed to some applicants illegally profiting from the crisis, as shown in the following
examples:

     A Texas property manager pled guilty to conspiracy. He, along with the property owner and the
      owner’s brother had been previously indicted for conspiracy and fraud in connection with a major
      disaster. They allegedly devised a false invoice scheme involving approximately $1 million in
      SBA home and business disaster loans. The property manager falsely claimed that Hurricane Ike
      had damaged a rental property, but the investigation determined that the damage had been caused
      by an intentional fire set prior to the hurricane. The owner allegedly also submitted to SBA
      inflated and false invoices for repairs to his residence and rental properties. Moreover, his
      brother allegedly verified $680,000 in fictitious repairs that he claimed his company had
      completed. The SBA Disaster Assistance Processing and Disbursement Center in Fort Worth,
      TX, referred the allegation to the OIG. The case is a joint investigation with the Department of
      Homeland Security (DHS) OIG.




                                                   9
                              Disaster Loan Program

 A Louisiana couple pled guilty to conspiracy to commit wire fraud. The charges involved a
   $126,300 SBA loan that a second couple received in order to rebuild and repair their residence,
   which had been damaged by Hurricane Ike. The second couple gave power of attorney to a
   financial group, owned by the wife from the first couple, for the purpose of negotiating and
   finalizing their SBA loan. Her husband was the manager of the company responsible for the
   repairs to the borrowers’ residence. A review of documents submitted to SBA by the wife in
   support of loan disbursement determined that the items listed on the invoices had never been
   purchased and the cancelled checks were fraudulent.




                                             10
    Small Business Development, Contracting, Education and Training

The SBA works to maximize opportunities for small, woman, or minority-owned and other disadvantaged
businesses to obtain federal contract awards through its government contracting programs. These
programs include, among others, the Historically Underutilized Business Zone (HUBZone)
Empowerment Contracting Program and the Small Disadvantaged Business (SDB) Certification Program.
The SBA also negotiates with other federal agencies to establish procurement goals for contracting with
small, disadvantaged, women-owned, service-disabled veteran-owned, and HUBZone businesses. The
current government-wide goal is for small businesses to receive 23 percent of the total value of prime
contracts awarded each fiscal year.

To help small disadvantaged businesses gain access to federal and private procurement markets, the
SBA’s Section 8(a) Business Development Program offers a broad range of business development
support, such as mentoring, procurement assistance, business counseling, training, financial assistance,
surety bonding, and other management and technical assistance. The SBA also provides assistance to
existing and prospective small businesses through a variety of counseling and training services offered by
partner organizations. Among these partners are Small Business Development Centers (SBDCs), the
Service Corps of Retired Executives (SCORE), and Women’s Business Centers (WBCs). Most of these
are grant programs that require effective and efficient management, outreach, and service delivery.

Businesses Falsify Eligibility to Receive Contracting Preferences

Some firms seek preferences in obtaining federal contracts by misrepresenting their eligibility for the
Service-Disabled Veteran-Owned (SDVO) Small Business Concern, Historically Underutilized Business
Zone (HUBZone), Section 8(a) Business Development, and Alaska Native Corporation (ANC) programs.
Investigations by the OIG and other federal organizations have uncovered schemes in which companies
owned or controlled by non-disadvantaged persons falsely claim to be disadvantaged firms or use actual
disadvantaged firms as fronts. The following cases illustrate the problem.

     The president and chief executive officer of a New York construction company was found guilty
      of mail fraud, major fraud against the United States, making false statements, and tampering with
      a victim, witness or an informant. The company falsely claimed status as an SDVO business and
      was awarded a $5,698,000 veteran-owned set-aside contract and three SDVO set-aside contracts
      totaling $10,980,690. The evidence revealed that the owner is neither a veteran nor a service-
      disabled veteran. This was a joint investigation with the Department of Veterans Affairs OIG and
      the U.S. Army CID.

     The owner of an Alabama maintenance company was indicted for misrepresentation. He
      allegedly and falsely obtained an SBA HUBZone certification because the company’s principal
      office was not located within a HUBZone, nor did 35 percent of its employees reside within a
      HUBZone, as required by program regulations. As a result of his misrepresentations to SBA, the
      company was awarded 28 federal contracts valued at nearly $2.6 million from 2006 to 2009. The
      firm would not have been eligible to receive these contracts if it had not falsified its HUBZone
      status. The OIG is conducting this investigation jointly with the U.S. Army CID and the Defense
      Criminal Investigative Service (DCIS).




                                                   11
Small Business Development, Contracting, Education and Training

 Two Florida men were indicted for conspiracy and wire fraud. The indictment also contained
  forfeiture allegations notifying them that the United States intends to seek a $100 million
  monetary judgment and to call for forfeiture of assets including $8.1 million previously seized
  from bank accounts and real property. The men allegedly devised a scheme whereby they created
  an undisclosed affiliate of a larger company for the purpose of obtaining a $100 million small
  business set-aside contract with the Department of Defense (DoD). They allegedly used a
  nominee owner to create the appearance that the new company was not affiliated with a
  consultant firm that they controlled and that had been the incumbent contractor on a previous
  DoD contract. The men also allegedly submitted false and misleading information about the
  relationship between the two companies after the firms’ affiliation was challenged during a size
  protest submitted to the SBA. This is a joint investigation with DCIS.

 The owner of an 8(a) certified design and remodeling business in the District of Columbia was
  sentenced to 18 months in prison, 36 months’ probation, nearly $390,000 in restitution, and 360
  hours of community service. She previously had pled guilty to conspiracy and false claims. The
  owner had conspired to submit falsified information to the General Services Administration
  (GSA) in the course of obtaining an 8(a) contract with DHS Immigration and Customs
  Enforcement (ICE). Consequently, ICE suffered a loss of nearly $390,000. The OIG conducted
  the investigation jointly with the DHS ICE, the GSA OIG, and the Department of Justice
  Antitrust Division.

 The owner of an 8(a) certified business in Virginia pled guilty to unlawful procurement of
  citizenship or naturalization and to making false statements. His firm received over $3 million in
  contracts set aside for 8(a) certified businesses. The investigation disclosed that he obtained
  falsified U.S. citizenship documents from a DHS employee and used the documents to obtain a
  DoD security clearance. He used the same falsified documents as a basis for his claim that he
  was a U.S. citizen on his firm’s 8(a) application. This is a joint investigation with the DHS OIG,
  the DHS ICE, the Department of State Diplomatic Security Service, and the Department of Labor
  OIG.

 A research company agreed to pay the United States $200,000 to resolve a civil case regarding its
  HUBZone status. The firm stated that it qualified under the HUBZone program to receive
  government contracts when it bid on and received three Department of the Navy contracts. In
  addition, the firm submitted claims for and received payment under these contracts. The
  investigation found that company was not qualified for the HUBZone program because its
  principal office was not located within a HUBZone at the time it bid on and received these
  contracts.




                                              12
    Small Business Development, Contracting, Education and Training

Legislation Requires Approval of SBDC Surveys

In December 2004, Congress amended section 21(a) (7) of the Small Business Act to restrict the
disclosure of information regarding individuals or small businesses that have received assistance from an
SBDC, and further restricts the Agency’s use of such information. The provision also requires the
Agency to issue regulations regarding disclosures of such information for use in conducting financial
audits or SBDC client surveys. In 2009, the Agency represented to the OIG that it would issue
regulations as required by the statute, and later prepared proposed regulations. However, the Agency has
not yet issued these regulations.

In addition, paragraph 21(a)(7)(C)(iii) of the Small Business Act states that, until the issuance of such
regulations, any SBDC client survey and the use of such information shall be approved by the Inspector
General, who shall include such approval in the OIG’s Semiannual Report to Congress. According to a
report from the Agency, the SBA used an OIG-approved questionnaire to survey SBDC clients during the
second half of FY 2011.




                                                   13
                                      Agency Management

Agency management includes activities of the Offices of the Chief Financial Officer (CFO), the Chief
Information Officer (CIO), and Management and Administration. These activities encompass financial
reporting and performance management, human resources, procurements and grants, space and facilities,
and maintenance of the SBA’s information systems and related security controls.

Contracts for Procurement of Information Technology Hardware and Software Improperly
Funded

During this reporting period, the OIG issued a second report on an ongoing review of the SBA’s
Procurement of Information Technology Hardware and Software from Isika Technologies, Inc.
(iTechnologies). The OIG previously issued a report on the planning and award of contracts to
iTechnologies. The second report addressed whether SBA officials properly funded contracts awarded to
iTechnologies for the procurement of IT hardware and software.

During fiscal year (FY) 2009 and FY 2010, the SBA awarded two indefinite-quantity (IDIQ) contracts, a
Blanket Purchase Agreement (BPA), and five purchase order contracts totaling nearly $7,600,000 to
iTechnologies. These types of contracts are appropriate for procuring supplies and services when the
government anticipates recurring requirements but cannot determine the precise quantities that will be
needed within a specific period.

In the case of an IDIQ contract, the government incurs a legal liability in the amount of the guaranteed
minimum at the time of contract award. An inappropriate obligation of funds arises when an agency
obligates fixed-period funds on a contract in an attempt to both extend the life of those funds beyond their
availability and to circumvent appropriations law. Inappropriately obligated funds are then used to
procure goods or services in a subsequent fiscal year in the mistaken belief that the funds are no longer
subject to the appropriation’s expiration and remain available indefinitely. As a result, agencies risk
violating the Anti-Deficiency Act (ADA), which prohibits agencies from making or authorizing an
expenditure or obligation under an appropriation or fund in excess of the amount available.

The OIG found that contracting and OCIO personnel did not properly fund one IDIQ contract because
they obligated $3.151 million during FY 2009 and FY 2010 by issuing contract modifications. Further,
because the SBA did not use these obligated annual funds to purchase IT hardware or software during FY
2009 and FY 2010, the SBA was inappropriately obligating annual funds that otherwise would not have
been available for use in a subsequent fiscal year. As a result, the SBA: 1) violated the bona fide needs
rule relating to its FY 2009 and FY 2010 annual appropriations; 2) risked violating the Anti-Deficiency
Act by obligating expired FY 2010 annual funds during FY 2011 with no assurance that the agency had
funds available to cover these inappropriate expenditures; and 3) reported the inappropriate obligation of
funds to the Federal Procurement Data System – Next Generation (FPDS-NG), which resulted in an
overstatement of obligations to Small Disadvantaged Businesses (SDBs) in the FY 2009 Small Business
Goaling Report and may also lead to incorrect SDB reporting in the FY 2010 Small Business Goaling
Report. The OIG recommended that the CFO establish procedures to discontinue the SBA’s practice of
inappropriately obligating funds on contracts in anticipation of future needs, de-obligate inappropriately
obligated funds, develop and provide training on the bona fide needs rule, determine whether the SBA
violated the ADA and take appropriate action if a violation exists, review all ongoing SBA IDIQ contracts
to ensure that task orders are being issued in accordance with FAR Subpart 16.505, and, based on the



                                                    14
                                     Agency Management

IDIQ contracts review results, determine whether administrative actions are warranted against the
contracting officers. The OIG also recommended that the CFO revise FPDS-NG data to ensure that
inappropriately obligated funds are not included in the FY 2010 Small Business Goaling Report.

SBA Gift Authority

Section 4(g)(2) of the Small Business Act, as amended, provides that any gift, devise, or bequest of cash
accepted by the Administrator under Section 4(g) shall be held in a separate account and shall be subject
to semiannual audits by the Inspector General, who shall report his findings to Congress. During this
reporting period, the SBA reported that it had not received any cash gifts.

Co-sponsorships and Fee-Based Administration Sponsored Events

Section 4(h) of the Small Business Act, as amended, requires the OIG to report to Congress on a semi-
annual basis regarding the Agency’s use of its authority in connection with co-sponsorships and fee-based
Administration-sponsored events. The SBA’s Office of Strategic Alliances provided information to the
OIG related to co-sponsorships, including the names, dates, and locations of the cosponsored events and
the names of the cosponsors. This information was not verified by the OIG. As shown in Appendix IX,
between April 1, 2011 and September 30, 2011, there were 41 cosponsored events.




                                                   15
                              Other Significant OIG Activities

Character Screening Reduces Potential Program Fraud

Participants in SBA programs involving business loans, disaster assistance loans, Section 8(a)
certifications, surety bond guarantees, SBICs, and CDCs must meet Agency character standards. To help
ensure that this occurs, the OIG’s Office of Security Operations utilizes name checks and, where
appropriate, fingerprint checks to determine criminal background information. During this reporting
period, the OIG processed 2,416 external name check requests for these programs.

The OIG also refers applicants who appear ineligible because of character issues to program officials for
adjudication. The referrals are based on data from the OIG’s on-line connection with the FBI. As a result
of OIG referrals during this reporting period, SBA business loan program managers declined 25
applications totaling over $10.8 million and disaster loan program officials declined 6 applications
totaling over $265,000. In addition, the Section 8(a) program declined 10 applications for admission and
the Surety Bond Guaranty program declined one application for admission.

During this reporting period, the OIG also initiated 189 background investigations and issued 29 security
clearances for Agency employees and contractors. The OIG also adjudicated 120 background
investigative reports and coordinated with SBA’s Office of Disaster Assistance to adjudicate 132
derogatory background investigation reports. Finally, the OIG processed 852 internal name check
requests for Agency activities such as success stories, “Small Business Person of the Year” nominees, and
disaster assistance new hires.

OIG Promotes Debarment and Administrative Enforcement Actions

As a complement to the OIG’s criminal and civil fraud investigations, the OIG continually promotes the
use of suspensions, debarments and other administrative enforcement actions as a means to protect
taxpayer funds from those who have engaged in fraud or otherwise exhibited a lack of business integrity.
The OIG regularly identifies individuals and organizations for debarment and other enforcement actions
and submits detailed recommendations with supporting evidence to the responsible SBA officials.

During this reporting period, the OIG sent 25 suspension and debarment referrals to SBA. (The
Statistical Highlights section of this Report contains additional suspension and debarment statistics).
Most OIG administrative referrals involve the abuse of SBA’s loan and preferential contracting programs.
Where appropriate, the OIG recommends that the SBA suspend the subject of an ongoing OIG
investigation given program risk presented by the continued participation of those individuals and
entities.

Examples of OIG suspension and debarment referrals during the reporting period include:

     Based upon an OIG referral, the SBA suspended an 8(a) contractor and its owner based on
      evidence the contractor’s owner used a U.S. Passport obtained with false citizenship
      documentation to demonstrate United States Citizenship required by the 8(a) Business
      Development Program. The OIG coordinated with the DHS OIG on this referral and sent the
      suspension recommendations to SBA prior to the indictment of the contractor’s owner.




                                                   16
                              Other Significant OIG Activities

     As a result of an OIG referral, the SBA debarred a bank employee who was working as a loan
      officer for receiving a personal loan from the proceeds of an SBA guaranteed business loan. The
      debarred party was the bank’s loan officer for the SBA guaranteed loan and using SBA
      guaranteed loan proceeds for a personal loan was an impermissible use of funds.

Additionally, during the reporting period, the OIG continued its work to encourage the SBA to implement
a more robust debarment and suspension program, and to implement a program to prevent dishonest loan
agents from participating in SBA’s business loan programs. Although SBA has made some progress in
both areas, the Agency needs to continue to strengthen these enforcement programs.

Finally, the OIG has been an active participant in the Council of Inspectors General on Integrity and
Efficiency (CIGIE) Working Group on Suspensions and Debarments. The OIG made significant
contributions to a report that the Working Group issued identifying effective practices within the OIG
community for promoting suspension, debarment, and other enforcement actions.

OIG Reviews of Proposed Agency Regulations and Initiatives Lead to Improved Program Controls
to Reduce Fraud, Waste, Abuse and Inefficiencies

As part of the OIG’s proactive efforts to promote accountability and integrity and reduce inefficiencies in
SBA programs and operations, the OIG reviews changes that SBA is proposing to make to its program
directives such as regulations, internal operating procedures, agency policy notices, and SBA forms that
are completed by the public. Frequently, the OIG identifies material weaknesses in these proposals and
works with the Agency to implement recommended revisions to promote controls that are more effective
and deter waste, fraud, or abuse. During the reporting period, the OIG reviewed 54 proposed revisions of
program management or agency reorganization documents and submitted comments on 34 of these
initiatives.

Many of the initiatives that the OIG commented upon were issued in response to the various program
changes mandated by the Small Business Jobs Act of 2010 or new programs implemented by SBA. For
example, in response to OIG comments, the Agency implemented revisions to strengthen controls, and
reduce the potential for waste, fraud, abuse, and inefficiencies in the 504 Program first-lien loan pooling
program, and 504 debt refinancing and Intermediary Lending Pilot Program. The OIG also pointed out
concerns with SBA’s proposed revisions of various standards to measure small businesses. Additionally,
OIG recommendations in connection with several information technology security and quality assurance
guidance documents also led to more robust controls in and enhancements to these program documents.

OIG Conducts Fraud Awareness Briefings

During this reporting period, the OIG conducted 9 fraud awareness presentations for approximately 515
attendees, including loan officers, bank security officers, law enforcement representatives, and SBA
employees. Topics included types of fraud, fraud trends, the False Claims Act, and the Service-Disabled,
Veteran-Owned SBA program.




                                                    17
                                                          Statistical Highlights


                                  6-Month Productivity Statistics April 1 - Sept. 30, 2011


Summary of Office-Wide Dollar Accomplishments                                                                                                    Totals

A.   Potential Investigative Recoveries and Fines ....................................................................... $24,394,468
B.   Loans/Contracts Not Approved or Canceled as Result of Investigations.................................. $925,000
C.   Loans Not Made as a Result of Name Checks ..................................................................... $11,106,927
D.   Disallowed Costs Agreed to by Management ........................................................................ $4,956,977
E.   Recommendations that Funds Be Put to Better Use Agreed to by Management……………$1,242,400
     Total ..................................................................................................................................... $42,625,772

Efficiency and Effectiveness Activities Related to Audit and Other Reports

A.   Reports Issued ........................................................................................................................................ 9
B.   Recommendations Issued ..................................................................................................................... 34
C.   Dollar Value of Costs Questioned .......................................................................................... $9,536,794
D.   Dollar Value of Recommendations that Funds be Put to Better Use. …………….…….....................$0
E.   Collections as a Result of Questioned Costs .......................................................................... $4,820,579

Audit and Report Follow-up Activities

A. Recommendations for which Management Decisions were made
   During the Reporting Period ................................................................................................................ 52
B. Disallowed Costs Agreed to by Management ........................................................................ $4,956,977
C. Dollar Value of Recommendations that Funds Be Put to Better Use
   Agreed to by Management ..................................................................................................... $1,242,400
D. Recommendations without a Management Decision at End of Reporting Period ............................... 32

Legislation/Regulations/Standard Operating Procedures (SOPs)/Other Reviews

A. Legislation, Regulations, Standard Operating Procedures, and Other Issuances * Reviewed ............. 54


*    This category includes policy notices, procedural notices, Administrator’s action memoranda, and other
     Agency initiatives, which frequently involve the implementation of new programs and policies.




                                                                            18
                                                          Statistical Highlights

                               6-Month Productivity Statistics April 1 - Sept. 30, 2011

Indictments, Convictions, and Case Activity

A.   Indictments from OIG Cases………………………………………………………………….………44
B.   Convictions from OIG Cases….…................................................................................................ …..30*
C.   Cases Opened ....................................................................................................................................... 48
D.   Cases Closed......................................................................................................................................... 14

Recoveries and Management Avoidances as a Result of Investigations and Related Activities

A. Potential Recoveries and Fines as a Result of OIG Investigations………………………..$24,394,468*
B. Loans/Contracts Not Approved or Canceled as Result of Investigations.................................. $925,000
C. Loans Not Approved as a Result of the Name Check Program ........................................... $11,106,927
   Total .................................................................................................................................... $36,426, 395
*May include actions from prior reporting periods.

SBA Personnel Actions Taken as a Result of Investigations

A.   Dismissals............................................................................................................................................... 0
B.   Resignations/Retirements ....................................................................................................................... 1
C.   Suspensions ............................................................................................................................................ 1
D.   Reprimands............................................................................................................................................. 0
E.   Other ....................................................................................................................................................... 0

Debarment and Suspension Actions

A. Suspensions and/or Debarments Recommended to the Agency….……...……………..…………….25
    A.1. Suspensions and/or Debarments based on convictions, judgments or indictments ………..…..16
    A.2. Suspensions and/or Debarments not based on convictions, judgments or indictments ….…..….9
B. Suspensions and/or Debarments Pending at the Agency**.….….….…………………………....…..27
C. Proposed Debarments Issued by the Agency .......................................................................................10
D. Final Debarments Issued by the Agency.................................................................................................9
E. Suspensions Issued by the Agency..........................................................................................................9
F. Proposed Debarments Declined by the Agency......................................................................................0
G. Actions by Other Agencies Resulting from Investigations in which the OIG Participated....................9
**SBA has initiated administrative proceedings in fourteen of the twenty-seven pending cases.

OIG Hotline Operation Activities
A. Total Hotline Complaints .................................................................................................................. .390
B. Total Complaints Referred to OIG Investigations Division ............................................................... 145
C. Total Complaints Referred to SBA or Other Federal Investigative Agencies.................................... 123
D. Total Complaints Referred to Other Entities......…..…………………………………….…..................8
E. Total Complaints Needing No Action .................................................................................................. 28
F. Total Complaints Being Reviewed by Hotline for Possible Referral or Other Resolution ................. .91
G. Total Complaints Referred to OIG Counsel Division .......................................................................... 19
H. Total Complaints Referred to OIG Auditing Division ........................................................................... 4

                                                                               19
                                                            Statistical Highlights


                              Full Year Productivity Statistics Oct.1, 2010 – Sept. 30, 2011

Summary of Office-Wide Dollar Accomplishments                                                                                                   Totals

A. Potential Investigative Recoveries and Fines ....................................................................... $30,512,507
B. Loans/Contracts Not Made as Result of OIG Investigations .................................................. $5,425,000
C. Loans Not Made as Result of Name Checks ......................................................................... $24,759,839
D. Disallowed Costs Agreed to by Management ....................................................................... $6,009,7871
E. Recommendations that Funds Be Put to Better Use Agreed to by Management….………$54,242,4002
Total ......................................................................................................................................... $120,949,533

Efficiency and Effectiveness Activities Related to Audit and Other Reports

A.   Reports Issued ...................................................................................................................................... 24
B.   Recommendations Issued ................................................................................................................... 136
C.   Dollar Value of Costs Questioned ........................................................................................ $12,254,937
D.   Dollar Value of Recommendations that Funds Be Put to Better Use……............................................$0
E.   Collections as a Result of Questioned Costs .......................................................................... $5,389,929

Audit and Report Follow-up Activities

A. Recommendations for which Management Decisions were made
   During the Reporting Period .............................................................................................................. 168
B. Disallowed Costs Agreed to by Management ........................................................................ $6,009,787
C. Dollar Value of Recommendations that Funds Be Put to Better Use
   Agreed to by Management ................................................................................................... $54,242,400
D. Recommendations without a Management Decision at End of Reporting Period ............................... 32

Legislation/Regulations/Standard Operating Procedures (SOPs) and Other Reviews

A. Legislation, Regulations, Standard Operating Procedures, and Other Issuances3 Reviewed ............. 133




1
  Management agreed to $1,033,850 in the spring SAR but the full amount can only be determined at the time a loan defaults.
2
  Includes $53 million in Funds for Better Use, agreed to by Management in March 2011, not reported in spring 2011.
3
  This category includes policy notices, procedural notices, Administrator’s action memoranda, and other
   Agency initiatives, which frequently involve the implementation of new programs and policies.

                                                                            20
                                                             Statistical Highlights


                                Full Year Productivity Statistics Oct. 1, 2010 – Sept. 30, 2011

Indictments, Convictions, and Case Activity

A. Indictments from OIG Cases……………………………..……………………………………………69
B. Convictions from OIG Cases………………………………………………….………………………47
C. Cases Opened ..................................................................................................................................... .85
D. Cases Closed ......................................................................................................................................... 53

Recoveries and Management Avoidances as a Result of Investigations and Related Activities

A. Potential Recoveries and Fines as a Result of OIG Investigations…………………………$30,512,507
B. Loans/Contracts Not Approved as a Result of OIG Investigations ......................................... $5,425,000
C. Loans/Contracts Not Approved as a Result of the Name Check Program ………….……..$24,759,839
Total ........................................................................................................................................... $60,697,346

SBA Personnel Actions Taken as a Result of Investigations

A.    Dismissals ............................................................................................................................................... 0
B.    Resignations/Retirements ........................................................................................................................ 1
C.    Suspensions ............................................................................................................................................. 1
D.    Reprimands ............................................................................................................................................. 0
E.    Other ........................................................................................................................................................ 0

Debarment and Suspension Actions
A. Suspensions and/or Debarments Recommended to the Agency………...……………………………..41
      A.1. Suspensions and/or Debarments based on convictions, judgments or indictments4…..……….20
    A.2 Suspensions and/or Debarments not based on convictions, judgments or indictments4…..…….21
B. Suspensions and/or Debarments Pending at the Agency 4 ……..…………………………………..….38
C. Proposed Debarments Issued by the Agency .........................................................................................18
D. Final Debarments Issued by the Agency .............................................................................................. 16
E. Suspensions Issued by the Agency..........................................................................................................14
F. Proposed Debarments Declined by the Agency .......................................................................................3
G. Actions by Other Agencies Resulting from Investigations in which the OIG Participated …..............24

OIG Hotline Operation Activities

A.     Total Hotline Complaints ................................................................................................................... 550
B.     Total Complaints Referred to Investigations Division ....................................................................... 169
C.     Total Complaints Referred to SBA or Other Federal Investigative Agencies.................................... 168
D.     Total Complaints Referred to Other Entities ........................................................................................ 17
E.     Total Complaints Needing No Action .................................................................................................. 38
F.     Total Complaints Being Reviewed for Possible Referral or Other Resolution (by Hotline) ............. 163
G.     Total Complaints Referred to OIG Counsel Division 4……………………………………….………19
H.     Total Complaints Referred to OIG Auditing Division 4…..…..………………………………………..4

4
    New category for this reporting period.

                                                                                 21
                       Appendix I: OIG Reports Issued April 1 - Sept. 30, 2011



                                             Small Business Access to Capital

                                                          Report                Issue              Questioned               Funds for
                        Title
                                                          Number                Date                 Costs                  Better Use
    Banco Popular Did Not Adequately
    Assess Borrower Repayment Ability
                                                             11-16             7/13/11               $2,100,000                    $0
    When Originating Huntington Learning
    Center Franchise Loans
                Program Subtotal                                1                                    $2,100,000                    $0



                                 Small Business Access to Capital - Recovery Act

                                                          Report                Issue              Questioned               Funds for
                        Title
                                                          Number                Date                 Costs                  Better Use
    Material Deficiencies Identified in Four
    7(A) Recovery Act Loans Resulted in                  ROM 11-05             6/29/11               $3,232,890                    $0
    $3.2 Million of Questioned Costs
    Material Deficiencies Identified in Five
    7(A) Recovery Act Loans Resulted in                  ROM 11-06             8/22/11                $998,254                     $0
    $2.7 Million of Questioned Costs5
    Origination and Closing Deficiencies
    Identified In 7(a) Recovery Act Loan                 ROM 11-07             9/30/11               $3,205,650                    $0
    Approvals
                Program Subtotal                                3                                    $7,436,794                    $0



                                                           Disaster Loans

                                                          Report                Issue              Questioned               Funds for
                        Title
                                                          Number                Date                 Costs                  Better Use
    SBA’s Response to the Deepwater
                                                             11-12              4/7/11                    $0                       $0
    Horizon Oil Spill
    Release of Collateral by the Disaster Loan
                                                             11-15              6/3/11                    $0                       $0
    Servicing Centers
    Release of Collateral by SBA’s Disaster
    Processing and Disbursement Center                       11-17             9/26/11                    $0                       $0
    Raises Concerns
                  Program Subtotal                              3                                         $0                       $0




5
  Two loans were originated by SBA for which origination deficiencies were identified therefore precluding recovery of $1.7 million due to
improper origination by the SBA.

                                                                      22
               Appendix I: OIG Reports Issued April 1 - Sept. 30, 2011


                                       Agency Management

                                        Report         Issue     Questioned        Funds for
               Title
                                        Number         Date        Costs           Better Use
Independent Review of SBA’s
Accounting of FY 2010 Drug Control        11-13        4/18/11                $0           $0
Funds and Performance Summary Report
SBA's Funding of Information
Technology Contracts Awarded to           11-14        6/2/11                 $0           $0
ISIKA Technologies, INC.
          Program Subtotal                 2                                 $0            $0
       TOTALS (all programs)               9                         $9,536,794            $0




                                                  23
                            Appendix II: OIG Reports with Questioned Costs


                                                                          Recommen-               Questioned       Unsupported
                                                        Reports
                                                                           dations6                 Costs7            Costs8
         No management decision made
    A.                                                        2                   2                   $1,530,587        $760,532
         by March 31, 2011
    B.   Issued during this reporting period                  4                   11                  $9,536,794      $5,849,596
         Universe from which management
         decisions could be made in this                      6                   13                $11,067,381       $6,610,128
         reporting period – Subtotals
         Management decision(s) made
    C.                                                        4                   7                   $4,956,977        $798,228
         during this reporting period
         (i) Disallowed costs                                 4                   7                   $4,956,977        $798,228
         (ii) Costs not disallowed                            1                   1                           $0              $0
         No management decision made
    D.                                                        3                   6                   $6,110,404      $5,811,900
         by September 30, 2011




6
  Reports may have more than one recommendation.
7
  Questioned costs are those, which are found to be improper.
8
  Unsupported costs may be proper, but lack documentation. Unsupported costs are a subset of questioned costs.


                                                                     24
Appendix III:OIG Reports with Recommendations that Funds be put to Better Use


                                                                              Recommended
                                                                Recommen-
                                                      Reports                Funds For Better
                                                                 dations *
                                                                                   Use
      No management decision made by
 A.                                                         1       1                $1,242,400
      March 31, 2011
 B.   Issued during this reporting period                   0       0                       $0
      Universe from which management
      decisions could be made in this reporting             1       1                $1,242,400
      period – Subtotals
      Management decision(s) made during this
 C.                                                         1       1                $1,242,400
      reporting period
      (i) Recommendations agreed to by SBA
                                                            1       1                $1,242,400
           management
      (ii) Recommendations not agreed to by
                                                            0       0                       $0
           SBA management
      No management decision made by
 D.                                                         0       0                       $0
      September 30, 2011

      *
          Reports may have more than one recommendation.




                                                           25
              Appendix IV: OIG Reports with Non-Monetary Recommendations


                                                                                                Reports          Recommendations
                                                                            9
A.       No management decision made by March 31, 2011                                               8                       4710
B.       Issued during this reporting period                                                         7                       23
         Universe from which management decisions could be made in
                                                                                                    15                       70
         this reporting period – Subtotals
         Management decision(s) made (for at least one recommendation
C.                                                                                                  11                       44
         in the report) during this reporting period

D.       No management decision made by September 30, 2011*                                          7                       26




9
    Adding the number of reports for C. & D. will not result in the subtotal of A. & B. because any single report may have
     recommendations that fall under both C. & D.
10
     Information is different from what was previously reported due to database corrections.



                                                                      26
 Appendix V: Reports from Prior Periods with Overdue11 Management Decisions


                                                            Report           Date
                          Title                                                                       Status
                                                            Number          Issued
Premier Certified Lenders in the Section 504                                           The Agency has not responded to one
                                                               10-10        3/23/10
Loan Program                                                                           recommendation in the report.
GFRS for Fiscal Year 2010                                                              The Agency has not responded to three
                                                               11-04        11/12/10
                                                                                       recommendations in the report.




11
     Overdue” is defined as more than 180 days from the date of issuance.




                                                                       27
         Appendix VI: Reports Without Final Action as of September 30, 2011


                                                                                              Final
                                                                                  Date of
Report                                                                Date                   Action
                                          Title                                 Management
Number                                                               Issued                  Target
                                                                                 Decision
                                                                                              Date
  0-14        7(a) Service Fee Collections                           3/30/00      8/22/00    6/30/11
              SBA’s Oversight of the Fiscal Transfer Agent for
  3-08                                                               1/30/03      10/15/03   12/30/11
              the 7(a) Loan Program
  3-26        Microloan Program                                      5/12/03      8/28/03    12/31/11
              Audit of SBA's Process for Complying with the
  4-34        Federal Managers' Financial Integrity Act              7/29/04       9/9/04    4/30/11
              Reporting Requirements
              FY 2005 Financial Statements - Management
  6-10                                                               1/18/06       3/7/06    9/30/12
              Letter
              Audit of SBA's Implementation of the Improper
  6-25                                                               6/13/06      7/19/06    6/30/12
              Payments Information Act
              Audit of SBA's Fiscal Year 2006 Financial
  7-03                                                               11/15/06     12/20/06   6/30/11
              Statements
  8-12        Oversight of SBA Supervised Lenders                     5/9/08      6/20/08    6/30/11
              Planning for the Loan Management and
  8-13        Accounting System Modernization and                    5/14/08      8/27/08    12/11/11
              Development Effort
              Audit of SBA’s Fiscal Year 2008 Financial
  9-03                                                               11/14/08     9/30/09    12/15/10
              Statements
              Audit of SBA’s Fiscal Year 2008 Financial
  9-05                                                               12/17/08     2/18/09    11/30/11
              Statements – Management Letter
              Review of SBA National Guaranty Purchase
  9-12                                                               3/31/09      3/31/09    10/15/09
              Center Furniture Contract
              Participation in the 8(A) Program by Firms Owned
  9-15                                                               7/10/09         *         **
              by Alaska Native Corporations
              SBA’s Fiscal Year 2008 Improper Payment Rate
  9-16                                                               7/10/09         *         **
              for the 7(A) Guaranty Loan Program
              Review of Allegations Concerning How the Loan
  9-17        Management and Accounting System                       7/30/09         *         **
              Modernization Project is Being Managed
              SBA’s Management of the Backlog of Post-
  9-18        Purchase Reviews at the National Guaranty              8/25/09      10/21/09   10/21/10
              Purchase Center
              Monitoring of Insurance Coverage for Disaster
 10-01                                                               10/20/09     11/6/09      **
              Loan Recipients
 10-04        Audit of SBA's FY 2009 Financial Statements            11/13/09     12/11/09    6/1/10
              Review of Controls Over Job Creation and
 ROM
              Retention Statistics Reports by SBA Under the          12/4/09         *       8/31/11
 10-04
              American Recovery and Reinvestment Act of 2009
  * Management decision dates vary with different recommendations.
 **Target dates vary with different recommendations.




                                                                28
        Appendix VI: Reports Without Final Action as of September 30, 2011


                                                                                              Final
                                                                                  Date of
Report                                                                Date                   Action
                                          Title                                 Management
Number                                                               Issued                  Target
                                                                                 Decision
                                                                                              Date
              Audit of SBA's FY 2009 Financial Statements -
 10-06                                                               12/15/09     1/20/10      **
              Management Letter
              SBA’s Efforts to Improve the Quality of
 10-08        Acquisition Data in the Federal Procurement Data       2/26/10      3/29/10      **
              System
              Premier Certified Lenders in the Section 504 Loan
 10-10                                                               3/23/10      4/26/10    12/31/11
              Program
              NFR on Material Origination & Closing
 ROM
              Deficiencies Identified in SBA and Lender-             3/31/10       7/1/10    9/30/10
 10-12
              Approved Recovery Act Loans
              Accuracy of Recovery Act Contract Award
 ROM          Obligations Reported to the Federal Procurement
                                                                     4/15/10       5/3/10    1/31/12
 10-14        Database System - Next Generation and
              Recovery.Gov
 ROM          SBA's Planning and Award of the Customer
                                                                     6/29/10         *         **
 10-16        Relationship Management Contracts
              Audit of the Assessment of the Community
 10-12                                                               8/25/10      3/28/11    11/30/11
              Express Pilot Loan Program
              BA's Role in Addressing Duplication of Benefits
 10-13        Between SBA Disaster Loans and Community                9/2/10      1/12/11    12/31/11
              Development Block Grants
              Adequacy of Quality Assurance Oversight of the
 10-14                                                               9/13/10         *       6/13/11
              Loan Management and Accounting System Project
 ROM          Notice of Finding and Recommendation on
                                                                     9/22/10         *         **
 10-18        Lender-Approved ARC Loans to Affiliates
 ROM          Material Deficiencies Identified in Early-Defaulted
                                                                     9/24/10         *         **
 10-19        and Early-Problem Recovery Act Loans
              Colorado District Office’s Servicing of 8(a)
 10-15                                                               9/30/10         *         **
              Business Development Program Participants
              Usefulness of the Small Business Innovation
 11-02                                                               11/12/10        *         **
              Research Tech-Net Database
 11-03        Audit of SBA's FY 2010 Financial Statements            11/12/10        *         **
              Audit of SBA's FY 2010 Financial Statements -
 11-05                                                               12/15/10        *         **
              Management Letter
 ROM          Improper Allotment of Recovery Act
                                                                     12/15/10      2/9/11    2/28/11
 11-02        Apportionments
              Weaknesses Identified During the FY 2010 FISMA
 11-06                                                               1/28/11      3/28/11      **
              Review
              Processing of Insurance Recovery Checks at the
 11-07                                                               2/10/11         *         **
              Disaster Loan Servicing Centers
  * Management decision dates vary with different recommendations.
 **Target dates vary with different recommendations.




                                                               29
       Appendix VI: Reports Without Final Action as of September 30, 2011


                                                                                             Final
                                                                                 Date of
Report                                                                Date                  Action
                                          Title                                Management
Number                                                               Issued                 Target
                                                                                Decision
                                                                                             Date
              SBA’s Procurement of Information Technology
 11-08        Hardware and Software Through Isika                    2/25/11     3/30/11      **
              Technologies, Inc.
              America's Recovery Capital Loans Were Not
 ROM
              Originated and Closed in Accordance with SBA's         3/2/11      3/31/11      **
 11-03
              Policies and Procedures
 ROM          Quality of SBA's Recovery Act Data on Public
                                                                     3/22/11     10/6/11      **
 11-04        Websites
              Management Advisory Report on Records
 11-10        Management and Documentation Process at the            3/29/11     6/20/11      **
              Disaster Loan Servicing Centers
              Effectiveness of SBA's Surveillance Review
 11-11                                                               3/31/11       *        12/31/11
              Process
              SBA's Response to the Deepwater Horizon Oil
 11-12                                                               4/7/11      4/22/11    9/30/11
              Spill
              Release of Collateral by the Disaster Loan
 11-15                                                               6/3/11      6/20/11    9/30/11
              Servicing Centers
              Material Deficiencies Identified in Four 7(A)
 ROM
              Recovery Act Loans Resulted in $3.2 Million of         6/29/11     7/19/11    12/30/11
 11-05
              Questioned Costs
              Banco Popular did not adequately assess Borrower
 11-16        Repayment Ability when Originating Huntington          7/13/11       *          **
              Learning Center Franchise Loans
              Material Deficiencies Identified in Five 7(A)
 ROM
              Recovery Act Loans Resulted in $2.7Million of          8/22/11     9/30/11    3/31/12
 11-06
              Questioned Costs
  * Management decision dates vary with different recommendations.
 **Target dates vary with different recommendations.




                                                               30
Appendix VII: Summary of Significant Recommendations from Prior Semiannual
      Reporting Periods without Final Action as of September 30, 2011

                                                                           Date of
Report     Date                                                                       Final Action
                                 Recommendation                          Management
Number    Issued                                                                      Target Date
                                                                          Decision
                    As part of the recommended program review,
                    determine whether 8(a) firms owned by ANCs
                    and tribes should continue to be exempt from the
  9-15    7/10/09                                                           8/2/09      6/30/11
                    cap on total sole source awards in CFR 124.519
                    and, if not, remove the exemption from this
                    regulation.
                    Establish internal controls that ensure that OBO
                    and OPGM are unable to modify contracts
  9-12    3/31/09                                                          3/31/09      9/30/09
                    without the appropriate supporting
                    documentation, including a statement of work.
                    Conduct a program review to evaluate whether
                    the growth in ANC 8(a) obligations has
                    adversely impacted, or will adversely impact,
  9-15    7/10/09                                                           8/4/09      9/30/12
                    other 8(a) firms and the overall effectiveness of
                    the 8(a) program and, if so, make programmatic
                    revisions to minimize the adverse impact.
                    As part of the recommended program review,
                    determine whether 8(a) firms owned by ANCs
                    and tribes should continue to be exempt from the
  9-15    7/10/09                                                           8/2/09      6/30/11
                    cap on total sole source awards in CFR 124.519
                    and, if not, remove the exemption from this
                    regulation.
                    Seek recovery of $2.3 million from lenders on
  9-16    7/10/09   the loans listed in the appendices of this report.     8/27/09      6/30/10

                    Report the revised improper rate calculated by
  9-16    7/10/09   the OIG for FY 2008 to OMB.                            9/26/09      11/15/09
                    Take steps to modify the contract to require the
                    QA/IV & V contractor to report all findings and
  9-17    7/30/09   recommendations to the Program Manager and             8/28/09      9/30/09
                    an independent QA Manager designated by the
                    CIO.
                    Establish a process for reviewing and accepting
  9-17    7/30/09   LMAS deliverables that complies with SDM               8/28/09      9/30/09
                    requirements.
                    Take steps to ensure that a well-defined
  9-17    7/30/09   deliverable acceptance process is established for       9/3/09      4/30/11
                    the LMAS project in accordance with SBA's
                    Enterprise Quality Assurance Plan.
  9-18    8/25/09   Seek recovery of $1,250,088 on the guaranties
                    paid on the 6 loans listed in this report.             10/21/09     10/21/10

                    Determine the actions needed to achieve
 10-01   10/20/09   compliance with statutory flood insurance              11/6/09      5/31/12
                    monitoring requirements and the cost
                    implications of achieving compliance.

                                                31
Appendix VII: Summary of Significant Recommendations from Prior Semiannual
      Reporting Periods without Final Action as of September 30, 2011

                                                                           Date of
Report     Date                                                                       Final Action
                                  Recommendation                         Management
Number    Issued                                                                      Target Date
                                                                          Decision
                     Develop and execute a plan for achieving
                     compliance on existing and future loans.
 10-01    10/20/09   Alternatively, if achieving compliance is             11/6/09      5/31/12
                     determined to be not cost effective, seek
                     additional funding or a legislative change to the
                     statutory flood insurance requirement.
                     Revise SOP 50-52 to clarify what action(s)
                     servicing center personnel should take when
 10-01    10/20/09                                                         11/6/09      5/31/12
                     borrowers refuse to obtain required hazard
                     insurance.
                     Implement a process to monitor the audit logs of
 10-04    11/13/09                                                         12/11/09      6/1/10
                     all financial applications on a regular basis.
                     Implement the necessary controls to check the
                     reasonableness of data, including user prompts,
 ROM                 range checks, and the prevention of negative
          12/4/09                                                          2/17/10      8/31/11
 10-04               figures in E-Tran to ensure the accuracy of
                     lender-reported job creation and retention
                     statistics.
                     Implement a data quality review and testing
 ROM
          12/4/09    process to determine if job data is properly           2/2/10      8/31/10
 10-04
                     recorded, classified, and reported.
                     Either update the FY 2008 Data Quality Plan or
                     revise the information notice to include explicit
 10-08    2/24/10                                                          3/29/10       5/1/11
                     steps that will be taken to ensure data is
                     reviewed for accuracy and completeness.
                     Conduct an independent review to ensure that
 10-08    2/24/10    the Data Quality Plan or information notice           3/29/10      1/31/12
                     requirements have been fully implemented.
                     Ensure that Office of Business Operations
 10-08    2/24/10    contracting personnel are held accountable for        3/29/10      3/30/11
                     the accuracy of FPDS data.
                     Evaluate the need to establish monetary or other
                     guidelines on the level of excess funds that
 10-10    3/23/10    CDCs should retain as a reserve for future            4/26/10      12/31/11
                     operations and/or invest in other local economic
                     development activities.
                     Implement the appropriate system controls to
                     automatically identify the outstanding balances
 ROM
          3/31/10    of all SBA loans made to a borrower to ensure          7/1/10      9/30/10
 10-12
                     SBA lending limits will not be exceeded upon
                     the approval of a subsequent loan.




                                                32
Appendix VII: Summary of Significant Recommendations from Prior Semiannual
      Reporting Periods without Final Action as of September 30, 2011

                                                                          Date of
Report     Date                                                                      Final Action
                                 Recommendation                         Management
Number    Issued                                                                     Target Date
                                                                         Decision
                    Reconcile Recovery Act contract awards
                    reported to FPDS-NG and Recovery.Gov and
                    report to Recovery.Gov all non-competitive
 ROM      4/15/10                                                          5/3/10      1/31/12
                    contract awards previously not reported to
 10-14
                    Recovery.Gov including the eight contract
                    actions identified by the Office of Inspector
                    General.
                    Take steps to ensure that no procurement action
 ROM      6/29/10                                                         3/29/11      6/30/11
                    is taken prior to the approval of an acquisition
 10-16
                    plan by the AA for M&A.
                    Exclude the CRM contract awarded to Copper
 ROM      6/29/10   River from SBA calculations used to determine         3/28/11      9/30/11
 10-16              the number of 8(a) program contracts and small
                    business contracts for fiscal year 2009.
                    Work with the OCIO to establish measurable
                    outcomes for the CRM initiative and identify the
 ROM      6/29/10   likelihood that a contractor could meet               3/28/11      5/15/11
 10-16              measurable outcomes in contract evaluation
                    criteria for any future contracts under this
                    initiative.
                    Repair $18,960 in guaranties on the 4 loans
 10-12    8/25/10   purchased above the 50-percent guaranty level         3/28/11      5/31/11
                    for which technical assistance was not
                    completed.
                    Coordinate with FEMA and HUD to formalize a
                    memorandum of understanding with HUD,
 10-13    9/2/10    which defines the functions of each agency in a       1/12/11      12/31/11
                    manner that is consistent with FEMA’s duplicate
                    benefits regulation and other applicable
                    regulations.
                    Coordinate with HUD to develop more
                    appropriate procedures to reduce duplication of
 10-13    9/2/10    benefits, including the development of a              1/12/11      12/31/11
                    duplication of benefits instructional guide to be
                    incorporated into HUD’s Information Toolkit
                    provided to grantees.
                    Revise the LMAS QA plan to incorporate all the
 10-14    9/13/10                                                         10/21/10     6/13/10
                    components required by the enterprise-wide QA
                    plan.




                                               33
Appendix VII: Summary of Significant Recommendations from Prior Semiannual
      Reporting Periods without Final Action as of September 30, 2011

                                                                           Date of
Report     Date                                                                       Final Action
                                 Recommendation                          Management
Number    Issued                                                                      Target Date
                                                                          Decision
                    Take steps to hold TestPros accountable for
 10-14    9/13/10   performing the activities specified in its             10/19/10     6/13/10
                    contract.
                    Review each of the 38 identified loans to
 ROM
          9/22/10   determine if they were made to eligible                12/17/10     4/30/11
 10-18
                    companies.
                    Cancel the loan guaranties and collect any
 ROM                associated interest paid to the lenders for any
          9/22/10                                                           4/1/11      12/31/11
 10-18              loans that SBA determines were made to
                    ineligible companies.
                    Conduct additional reviews of ARC loans
                    outside the scope of this NFR to identify other
 ROM
          9/22/10   loans made to affiliated companies that were           12/17/10     4/30/11
 10-18
                    inappropriately approved under delegated
                    authority.
                    Reexamine the credit-scoring matrix used by
 ROM                one lender that made 18 of the 32 loans with
          9/24/10                                                          10/28/10     3/31/11
 10-19              material deficiencies to ensure it complies with
                    SBA requirements.
                    Implement a process for providing feedback to
 ROM
          9/24/10   SBA employees and lenders when deficiencies            12/17/10     9/30/11
 10-19
                    are identified.
                    Require the lenders to bring the 25 purchased
 ROM
          9/24/10   loans with material deficiencies into compliance        4/1/11      12/30/11
 10-19
                    and recover the $375,259 in guaranties paid.
                    Flag the other loans that have not yet been
 ROM                purchased to ensure the loan deficiencies are
          9/24/10                                                          6/29/11      11/30/11
 10-19              properly addressed at the time of the purchase
                    review.
                    Review staffing levels of all the district offices
 10-15    9/30/10   to ensure that BDSs can devote the time needed         3/23/11      9/30/11
                    to adequately service their 8(a) participants.
                    Add the mandatory "Minority Code" data field
 11-02   11/12/10                                                           3/2/11      7/31/11
                    to Tech-Net.
                    Designate the "Principal Investigator" and
                    "Agency Solicitation Topic Code" as required
 11-02   11/12/10                                                           3/2/11      7/31/11
                    data fields2and inform participating agencies of
                    these designations.




                                                34
Appendix VII: Summary of Significant Recommendations from Prior Semiannual
      Reporting Periods without Final Action as of September 30, 2011

                                                                            Date of
Report     Date                                                                        Final Action
                                  Recommendation                          Management
Number    Issued                                                                       Target Date
                                                                           Decision
                     Add a database control that prevents agencies
 11-02   11/12/10                                                            3/5/11      4/15/11
                     from submitting their award data when any of
                     the mandatory data fields are left blank.
                     Require participating agencies to submit award
 11-02   11/12/10    information to SBA and other participating              3/4/11      3/30/12
                     agencies at the time of award, as required by
                     SBIR Policy Directive, Section 7(a) (iii).
                     Coordinate with SBA program offices to:
                     improve the vulnerability tracking and
                     monitoring process to fully address high and
                     medium risk vulnerabilities for key financial
                     systems; ensure that the vulnerability reports are
 11-03   11/12/10    reviewed and analyzed on a regular basis;              12/8/10      4/20/11
                     periodically monitor the existence of necessary
                     services and protocols running on servers and
                     network devices; and develop a more thorough
                     approach to track and mitigate patch
                     management and configuration management
                     vulnerabilities identified during monthly scans.
                     Develop a comprehensive security education
 11-03   11/12/10    and training program for all IT security                2/7/11       6/1/11
                     personnel and a method for monitoring the
                     training program.
                     Implement and enforce the procedures
                     documented in SOP 90.47.2 for sanitizing media
 11-03   11/12/10                                                           3/23/11      4/15/11
                     to be disposed and for maintaining a log of
                     employees who sanitize media to validate the
                     appropriateness of the sanitization process.
                     Coordinate with program offices using end-user
                     programs containing sensitive data, such as
 11-03   11/12/10                                                            1/3/11      4/15/11
                     Personally Identifiable Information and financial
                     data, to implement end-user computing
                     procedures in accordance with the guidance.
                     Enforce an organization-wide configuration
                     management process, to include policies and
 11-03   11/12/10                                                            2/7/11      4/30/11
                     procedures for maintaining documentation that
                     supports testing and approvals of software
                     changes.
                     Coordinate with SBA program offices to prevent
                     users from anonymously connecting
 11-03    11/12/10   unauthorized devices by developing and                 2/10/11      4/15/111
                     implementing procedures to ensure mandatory
                     domain authentication for IP address issuance.




                                                 35
Appendix VII: Summary of Significant Recommendations from Prior Semiannual
      Reporting Periods without Final Action as of September 30, 2011

                                                                          Date of
Report     Date                                                                      Final Action
                                 Recommendation                         Management
Number    Issued                                                                     Target Date
                                                                         Decision
                    Coordinate with SBA program offices to
                    improve the POA&M review and approval
                    process for key financial systems. In addition,
 11-03   11/12/10                                                          2/9/11       3/1/11
                    include all unresolved weaknesses on the
                    POA&M (including vulnerabilities identified at
                    service providers).
                    Coordinate with SBA program offices to
                    develop and implement procedures for user
 11-03   11/12/10                                                         2/10/11      4/29/11
                    access reviews to ensure that proper access
                    rights are set for financial subsystems.
                    Implement procedures and conduct audits of
 11-03   11/12/10                                                         12/8/10      1/31/11
                    financial system software changes to ensure all
                    changes are sufficiently approved and tested.
                    Update the system‘s program logic to ensure
 11-05   12/15/10                                                         2/10/11      7/14/11
                    that qualifying loans with executed due process
                    notices will be automatically referred.
                    Work with the Chief Information Officer to
 11-05   12/15/10   perform an analysis of loans charged-off in prior      2/9/11      7/14/11
                    years to identify and correct any DCIA non-
                    compliance issues noted.
 11-05   12/15/10   Continue to allocate resources as required to          3/7/11       3/7/11
                    timely address charge-offs.
                    Work with the HubZone Program Office
                    Director to develop and implement controls to
                    more effectively monitor the execution of its
 11-05   12/15/10   policies and procedures, particularly related to      3/31/11      12/31/11
                    the authorization of payroll transactions and the
                    performance of leave audits, to ensure that they
                    are being followed (e.g., develop policies that
                    require quarterly audits of leave discrepancies).
                    Revise the current methodology to maintain and
                    periodically update SBA‘s organizational
 11-05   12/15/10                                                         3/31/11      9/30/11
                    structure, functional statements, and charts.
                    Further, the revised methodology should be
                    documented in the SOP.
                    Reinforce, through management training, the
 11-05   12/15/10                                                         3/31/11      9/30/11
                    importance of properly and fully completing the
                    Separation Checklist.
                    Continue work with Colson to implement
                    consistent edit checks so that a meaningful
 11-05   12/15/10                                                         4/25/11      1/31/12
                    monthly comparison and reconciliation can be
                    made between the errors identified by Colson
                    and those identified by SBA.




                                               36
Appendix VII: Summary of Significant Recommendations from Prior Semiannual
      Reporting Periods without Final Action as of September 30, 2011

                                                                           Date of
Report     Date                                                                       Final Action
                                 Recommendation                          Management
Number    Issued                                                                      Target Date
                                                                          Decision
                    Work with the Chief Information Officer to
                    conduct an in-depth analysis of the existing
 11-05   12/15/10   Treasury referral protocol to identify and correct     2/10/11      7/14/11
                    the program coding that is preventing the 139
                    charged-off loans from being automatically
                    referred.
                    Work with the Chief Information Officer to
 11-05   12/15/10   implement interim, quarterly monitoring reviews         2/9/11      7/14/11
                    to identify all charged-off loans where the
                    automatic referral did not occur.
                    Ensure the newly implemented Funds Control
 ROM     12/15/10   System has adequate system controls in place to         2/9/11      2/28/11
 11-01              prevent allotments from exceeding apportioned
                    amounts.
                    Update the list of Major Systems to include all
                    the interfaces between each system and all other
                    systems and networks, including those not
 11-06    1/28/11                                                          3/28/11      9/30/11
                    operated by, or under the control of the agency
                    and obtain written Interconnection Security
                    Agreements for every SBA system that has an
                    interconnection to another system.
                    Enforce SOP 90-47 2 requirements for
                    contractor background investigations and
 11-06    1/28/11                                                          3/28/11      3/31/11
                    perform periodic reviews to ensure that SBA
                    contractors have completed the clearance
                    process prior to accessing sensitive information.
                    Establish a program at SBA to manage, control
                    and monitor system interconnections throughout
 11-06    1/28/11   their lifecycle. The program should encompass          3/28/11      9/30/11
                    planning, establishing, maintaining, and
                    terminating system interconnections, including
                    enforcement of security requirements.
                    Develop configuration management policies and
                    procedures that address purpose, scope, roles,
 11-06    1/28/11                                                          3/28/11      9/30/11
                    responsibilities, management commitment,
                    coordination among organizational entities, and
                    compliance.
 11-06    1/28/11   Develop and maintain a centralized inventory of        3/28/11      9/30/11
                    all agency hardware and software.
                    Revise the SBA Certification and Accreditation
                    Program Description procedural document to
 11-06    1/28/11                                                          3/28/11      6/30/11
                    reflect the risk management framework
                    approach established in NIST SP 800-37, Rev.1,
                    and the current POA&M process.




                                                37
Appendix VII: Summary of Significant Recommendations from Prior Semiannual
      Reporting Periods without Final Action as of September 30, 2011

                                                                         Date of
Report     Date                                                                     Final Action
                                 Recommendation                        Management
Number    Issued                                                                    Target Date
                                                                        Decision
                    Modify the POA&M reporting tool to comply
 11-06    1/28/11                                                        3/28/11      4/30/11
                    with the requirements set forth in OMB
                    Memorandum 04-25.
                    Develop and test system disaster recovery plans
 11-06    1/28/11   for all of SBA’s major systems at least annually     3/28/11      7/30/11
                    and initiate any necessary corrective actions
                    based on test results.
                    Recover $625,880 of DOBs identified in this
 11-07    2/10/11   audit that were improperly returned to borrowers      4/7/11      12/31/11
                    and $529,444 of DOBs identified in this audit
                    that were outside of the scope of the sample.
                    Identify and recover other DOBs improperly
 11-07    2/10/11                                                         4/7/11      4/30/12
                    returned during FY 2008, FY 2009, and FY
                    2010.
                    Assign the processing of insurance recovery
                    checks to selected individual(s) at each center
 11-07    2/10/11   and provide them training to allow them to            4/7/11      4/30/12
                    become proficient in calculating duplication of
                    benefits.
                    Ensure the servicing centers document all of the
 11-07    2/10/11   information related to the decision to return or     4/19/11      4/30/12
                    retain each check for future reference.
                    Instruct the contracting officer to immediately
                    terminate contracts: SBAHQ-09-D-0009,
                    SBAHQ-10-D-0001, and Blanket Purchase
 11-08    2/25/11                                                        3/30/11       7/1/11
                    Agreement (BPA) SBAHQ-10-A-0001 and re-
                    solicit the information technology (IT) hardware
                    and software requirement using full and open
                    competition procedures.
                    Implement and provide annual training to
                    contracting personnel on acquisition planning,
 11-08    2/25/11                                                        3/30/11      1/31/12
                    the appropriate use of North American Industry
                    Classification System (NAICS) codes and the
                    Non-manufacturer Rule.
                    Exclude contracts SBAHQ-09-D-0009,
                    SBAHQ-10-D-0001, and Blanket Purchase
                    Agreement (BPA) SBAHQ-10-A-0001 and all
 11-08    2/25/11                                                        3/30/11      1/31/12
                    associated delivery orders and BPA calls from
                    SBA calculations used to determine the number
                    of 8(a) program contracts and small business
                    contracts for fiscal years 2009 and 2010.




                                               38
Appendix VII: Summary of Significant Recommendations from Prior Semiannual
      Reporting Periods without Final Action as of September 30, 2011

                                                                          Date of
Report     Date                                                                      Final Action
                                 Recommendation                         Management
Number    Issued                                                                     Target Date
                                                                         Decision
                    Conduct a comprehensive review of data
                    submitted to the Federal Procurement Data
 11-08    2/25/11   System – Next Generation (FPDS-NG) for SBA
                                                                          3/30/11      1/31/12
                    contracts awarded to iTechnologies, reconcile all
                    discrepancies identified, and correct any
                    inaccurately reported data.
                    Flag all 56 loans to ensure the deficiencies are
                    properly addressed if the loans default and are
                    submitted for purchase. Further, notify the
 ROM      3/2/11
                    Office of Inspector General of any denials,           3/31/11      10/31/11
 11-03
                    repairs, withdrawals, or cancellations of SBA’s
                    guaranties made as a result of the deficiencies
                    identified during the purchase reviews.
                    Notify the loan-servicing center responsible for
                    purchasing defaulted ARC loans of the high
 ROM      3/2/11    number of deficiencies identified and require the     3/31/11      10/31/11
 11-03              center to carefully review all ARC loans for
                    compliance with SBA’s requirements during its
                    purchase review.
                    Notify the improper payment review team of the
                    high rate of improper ARC loan guaranties
 ROM      3/2/11                                                          3/31/11      10/31/11
                    identified during this audit to ensure the proper
 11-03
                    estimation of improper payments in the ARC
                    loan program.
                    Research the $21,627,140 in this report to
                    determine whether the award has been made or
 ROM      3/22/11                                                         10/6/11      6/30/12
                    the funds should be deobligated. This research
 11-04
                    should result in these actions being posted to
                    FPDS.gov.
                    Perform periodic reviews of grants data reported
 ROM      3/22/11   to USASpending.gov to ensure that data is             10/6/11      9/30/11
 11-04              accurate and complete in compliance with the
                    Transparency Act.
                    Work collaboratively with the CFO to develop
                    and implement a data quality plan that
 ROM      3/22/11                                                         10/6/11      9/30/11
                    documents processes to ensure timely, accurate,
 11-04
                    and complete submission of grants data to
                    USASpending.gov.
                    Deploy an independent statistical verification
 ROM      3/22/11                                                         10/6/11      6/30/12
                    and validation of all SBA transactions awarded
 11-04
                    and subsequently reported to FPDS.gov.




                                               39
Appendix VII: Summary of Significant Recommendations from Prior Semiannual
      Reporting Periods without Final Action as of September 30, 2011

                                                                          Date of
Report     Date                                                                      Final Action
                                 Recommendation                         Management
Number    Issued                                                                     Target Date
                                                                         Decision
                    Research the $695,157 in this report to
                    determine the disposition of these awards and
 ROM      3/22/11   whether Recovery Act funds were actually used         10/6/11      1/31/12
 11-04              to fund the awards. If not, these awards need to
                    be corrected in PRISM, FPDS.gov, and the
                    contract files.
                    Develop and implement a data quality plan that
 ROM      3/22/11   documents processes to ensure timely, accurate,       10/6/11      6/30/12
 11-04              and complete submission of contracts data to
                    USASpending.gov.
                    Implement continuous monitoring procedures to
                    ensure that contractor-reported information is
 ROM      3/22/11                                                         10/6/11      12/31/11
                    correct and accurate, and that all prime
 11-04
                    contractors are accurately reporting the use of
                    subcontractors.
                    Resolve the $14,792,496 discrepancy shown in
 ROM      3/22/11                                                         10/6/11      9/30/11
                    this report to determine whether the award has
 11-04
                    been made or the funds should be deobligated.
                    Deploy vigorous quality controls such utilizing
 ROM      3/22/11   system generated reports to ensure that grant         10/6/11      9/30/11
 11-04              awards are validated and released prior to
                    transmitting grants data to USASpending.gov.
                    Develop record designation and retention
                    requirements for all loan servicing documents
                    and coordinate with the Office of Management
 11-10    3/29/11   & Administration to incorporate this guidance         6/20/11      8/31/11
                    into SOP 50 52. The requirements should
                    specify which documents should be designated
                    as records, and therefore retained, and for how
                    long.
                    Revise SOP 50 52 to include a requirement to
                    preserve the analyses performed to conduct all
                    servicing actions. A summary of the analysis
                    should be present on the Form 327 and the detail
 11-10    3/29/11                                                         6/20/11      8/31/11
                    of the analysis should accompany the SBA Form
                    327 action. The analysis should include
                    sufficient detail to permit an outside party, not
                    connected with the transaction, to verify the
                    accuracy of the decision.
                    Refine the electronic recordkeeping system to
 11-10    3/29/11   facilitate usability so that all documents of a       6/20/11      4/15/12
                    specific type and for a specific range of dates
                    can be located and retrieved.




                                               40
Appendix VII: Summary of Significant Recommendations from Prior Semiannual
      Reporting Periods without Final Action as of September 30, 2011

                                                                            Date of
Report     Date                                                                        Final Action
                                 Recommendation                           Management
Number    Issued                                                                       Target Date
                                                                           Decision
                    Develop written procedures pertaining to the
                    electronic recordkeeping system and specify that
 11-10    3/29/11                                                           6/20/11      8/31/11
                    all documents associated with active loans are to
                    be included in the electronic recordkeeping
                    system.
                    Take the appropriate steps to amend SBA’s
                    selection criteria to include errors identified in
 11-11    3/31/11   GC’s anomaly reports, data on 8(a) contracting           7/7/11      12/31/11
                    activity, and inquiries to SBA’s 8(a) Business
                    Development staff on suspected problems on
                    8(a) contract execution.
                    Take the appropriate steps to amend SBA’s
                    selection criteria to eliminate those criteria that
 11-11    3/31/11                                                           7/12/11      12/31/11
                    do not indicate risk with the contracting activity,
                    i.e. availability to staff within commuting
                    distance.
                    Take the appropriate steps to develop and
                    implement a strategy that ensures contracting
 11-11    3/31/11                                                            7/7/11      12/31/11
                    activities that meet SBA’s selection criteria are
                    identified, prioritized on a nation-wide basis,
                    and targeted for a surveillance review.
                    Take the appropriate steps to determine (a) the
                    level of effort needed to establish an effective
 11-11    3/31/11                                                            7/7/11      12/31/11
                    monitoring process for small business
                    procurement activities and (b) the amount of
                    resources needed to implement such a process.
                    Take the appropriate steps to request resources
 11-11    3/31/11   from the Agency or through the annual budget             7/7/11      12/31/11
                    process as appropriate (Based on the results
                    from Recommendation #3).
                    Revise Chapter 4, How Do I Perform a
                    Surveillance Review? and corresponding
                    appendices, and update SOP 60 02 7, Prime
 11-11    3/31/11                                                            7/7/11      12/31/11
                    Contracts Program, to modify definitions of
                    rating categories to minimize subjectivity within
                    each rating category, including examples of
                    major and minor deficiencies.
                    Revise Chapter 4, How Do I Perform a
                    Surveillance Review? and corresponding
                    appendices, and update SOP 60 02 7, Prime
                    Contracts Program, to include (1) 8(a) Business
                    Development Program specific requirements as
 11-11    3/31/11                                                            7/7/11      12/31/11
                    identified in the Partnership Agreements and
                    Procedural Notice 8000-632; and (2) 8(a)
                    Business Development Program in Appendix 7,
                    Analysis of Contract Files and Appendix 8,
                    Interview Questions.

                                                41
Appendix VII: Summary of Significant Recommendations from Prior Semiannual
      Reporting Periods without Final Action as of September 30, 2011

                                                                          Date of
Report     Date                                                                      Final Action
                                 Recommendation                         Management
Number    Issued                                                                     Target Date
                                                                         Decision
                    Revise Chapter 4, How Do I Perform a
                    Surveillance Review? and corresponding
                    appendices, and update SOP 60 02 7, Prime
 11-11    3/31/11
                    Contracts Program, to establish a formal               7/7/11      12/31/11
                    follow-up process that ensures PCRs receive
                    copies of final reports and follow-up on
                    deficiencies and recommendations.
                    Issue written instructions to remind surveillance
 11-11    3/31/11   review teams to address all interview and              7/7/11      12/31/11
                    contract review checklist questions.
                    Issue written instructions to remind surveillance
                    review teams to evaluate whether contracting
 11-11    3/31/11   activities are monitoring the performance of           7/7/11      12/31/11
                    work requirements on the contracts that they
                    administer.
                    Develop and implement a plan to ensure that
                    surveillance review reports are issued to the
 11-11    3/31/11                                                          7/7/11      12/31/11
                    contracting activity that was reviewed within a
                    specific timeframe.




                                                42
Appendix VIII: Summary of Significant Recommendations April 1 - Sept.30, 2011


  Date    Report
                             Title                               Recommendation
 Issued   Number
                    SBA's Response to the      Develop written procedures to establish performance
 4/7/11     11-12   Deepwater Horizon Oil      metrics to assess workload and appropriate onsite staffing
                    Spill                      levels.
                    SBA's Response to the      Establish guidelines for monitoring onsite productivity
 4/7/11     11-12   Deepwater Horizon Oil      and adjusting staffing levels in a timely manner.
                    Spill
                    SBA's Funding of           Establish procedures to discontinue SBA's practice of
                    Information Technology     inappropriately obligating funds on contracts in
 6/2/11     11-14
                    Contracts Awarded to       anticipation of future needs.
                    Isika Technologies, Inc.
                    SBA's Funding of           Review all ongoing SBA indefinite delivery/indefinite
                    Information Technology     quantity contracts as a part of good financial management
                    Contracts Awarded to       practices to ensure that task orders are being issued in
 6/2/11     11-14
                    Isika Technologies, Inc.   accordance with Federal Acquisition Regulation Subpart
                                               165.505 and not as a tool to inappropriately obligate
                                               funds.
                    SBA's Funding of           Determine whether contracting officers violated FAR
                    Information Technology     Subpart 1.602, "Contracting Officers", and if so, take
 6/2/11     11-14
                    Contracts Awarded to       appropriate administrative actions.
                    Isika Technologies, Inc.
                    Release of Collateral by   Provide official written notification to direct the
                    the Disaster Loan          Servicing Centers to discontinue the practice of
 6/3/11     11-15   Servicing Centers          automatically releasing collateral upon borrower request
                                               when the loan balance falls at or below the unsecured
                                               threshold.
                    Release of Collateral by   Provide additional training to servicing center staff to
 6/3/11     11-15   the Disaster Loan          increase proficiency in performing appropriate release of
                    Servicing Centers          collateral.
                    Release of Collateral by   Instruct the approving official to only approve collateral
 6/3/11     11-15   the Disaster Loan          releases that comply with the SOP requirements.
                    Servicing Centers
                    Release of Collateral by   Instruct the servicing centers to apply net proceeds from
 6/3/11     11-15   the Disaster Loan          the sale of damaged properties to applicable SBA disaster
                    Servicing Centers          loans.
                    Release of Collateral by   Instruct servicing center personnel that when releasing
                    the Disaster Loan          collateral in order to execute a determination initiated by
 6/3/11     11-15
                    Servicing Centers          the Processing and Disbursement Center, they accurately
                                               report and document the decision.
                    Release of Collateral by   Instruct servicing center personnel execute the release of
                    the Disaster Loan          collateral on paid-in-full loans in a timely manner as
 6/3/11     11-15
                    Servicing Centers          required by the specific state laws in which the property
                                               is located.




                                               43
Appendix VIII: Summary of Significant Recommendations April 1 - Sept.30, 2011


  Date     Report
                             Title                               Recommendation
 Issued    Number
                    Material Deficiencies       Seek recovery of $37,696, plus interest, from UniBank
                    Identified in Four 7(A)     on the guaranty paid by SBA for the loan to Y&C
            ROM
 6/29/11            Recovery Act Loans          Enterprise, Inc.
            11-05
                    Resulted in $3.2 Million
                    of Questioned Costs
                    Material Deficiencies       Seek recovery of $373,532, plus interest, from Chetco
                    Identified in Four 7(A)     Federal Credit Union on the guaranty paid by SBA for
            ROM
 6/29/11            Recovery Act Loans          the loan to The Henry Group of Oregon, LLC.
            11-05
                    Resulted in $3.2 Million
                    of Questioned Costs
                    Material Deficiencies       Seek recovery of $1,445,021, plus interest, from Excel
                    Identified in Four 7(A)     National Bank on the guaranty paid by SBA for the loan
            ROM
 6/29/11            Recovery Act Loans          to Super 8.
            11-05
                    Resulted in $3.2 Million
                    of Questioned Costs
                    Material Deficiencies       Seek recovery of $1,376,641, plus interest, from Excel
                    Identified in Four 7(A)     National Bank on the guaranty paid by SBA for the loan
            ROM
 6/29/11            Recovery Act Loans          to Days Inn & Super 8.
            11-05
                    Resulted in $3.2 Million
                    of Questioned Costs
                    Banco Popular did not       Seek recovery of the loan guaranties, less any
                    adequately assess           recoveries, paid in connection with the 10 defaulted
                    Borrower Repayment          loans and their associated lines of credit.
 7/13/11    11-16
                    Ability when Originating
                    Huntington Learning
                    Center Franchise Loans
                    Material Deficiencies       Seek recovery of $506,250, plus interest, from Heritage
                    Identified in Five 7(A)     Oaks Bank on the guaranty paid by the SBA for the loan
            ROM
 8/22/11            Recovery Act Loans          to EP&S Enterprises Inc.
            11-06
                    Resulted in $2.7Million
                    of Questioned Costs
                    Material Deficiencies       Seek recovery of $191,702, plus interest, from First
                    Identified in Five 7(A)     Coast Community Bank on the guaranty paid by the
            ROM
 8/22/11            Recovery Act Loans          SBA for the loan to Apex Rentals & Events, LLC and
            11-06
                    Resulted in $2.7Million     Deonas Boat Works, Inc.
                    of Questioned Costs
                    Material Deficiencies       Seek recovery of $193,500, plus interest, from Valley
                    Identified in Five 7(A)     Bank on the guaranty paid by the SBA for the loan to
            ROM
 8/22/11            Recovery Act Loans          CAC Leasing, Inc. and CAC, Inc.
            11-06
                    Resulted in $2.7Million
                    of Questioned Costs
                    Material Deficiencies       Seek recovery of $106,802, plus interest, from Foster
                    Identified in Five 7(A)     Bank on the guaranty paid by the SBA for the loan to
            ROM
 8/22/11            Recovery Act Loans          Cover The World Import & Export, Inc.
            11-06
                    Resulted in $2.7Million
                    of Questioned Costs




                                               44
Appendix VIII: Summary of Significant Recommendations April 1 - Sept.30, 2011


  Date     Report
                             Title                              Recommendation
 Issued    Number
                    Material Deficiencies      Ensure all SBA loan officers involved in the loan
                    Identified in Five 7(A)    approval and purchase processes understand and
            ROM
 8/22/11            Recovery Act Loans         implement the steps necessary to identify all affiliates
            11-06
                    Resulted in $2.7Million    and determine their impact on repayment ability, size,
                    of Questioned Costs        and SBA’s guaranty percentage.
                    Release of Collateral by   Provide official written notification to the PDC to
                    SBA's Disaster             discontinue the practice of considering duplication of
 9/26/11    11-17   Processing and             benefits as the determinant of whether or not to obtain
                    Disbursement Center        the sales proceeds from the sale of damaged properties.
                    Raises Concerns
                    Origination and Closing    Flag the 10 lender-approved loans with identified
                    Deficiencies Identified    deficiencies that pose an approximate $3 million risk of
                    In 7(a) Recovery Act       loss to the SBA to ensure the deficiencies are properly
            ROM     Loan Approvals             addressed if the loans default and are submitted for
 9/30/11
            11-07                              purchase. Further, notify the OIG of any denials, repairs,
                                               withdrawals, or cancellations of SBA’s guaranties made
                                               as a result of the deficiencies identified during the
                                               purchase reviews.
                    Origination and Closing    Notify the improper payment review team of the high
            ROM     Deficiencies Identified    rate of improper 7(a) loan guaranties identified during
 9/30/11
            11-07   In 7(a) Recovery Act       this audit to ensure the proper estimation of improper
                    Loan Approvals             payments in the 7(a) loan program.




                                               45
       Appendix IX: Cosponsored and Other Activities April 1 - Sept. 30, 2011


 Event         Event          Name or Subject of                              Name of
 Date         Location             Event                                    Cosponsor(s)
                             Generating Opportunities     South Dakota DO - South Dakota Bankers
                             Under the Small Business     Association, Federal Reserve Bank of Minneapolis,
            Chamberlain,
5/12/11                      Jobs Act of 2010             Federal Deposit Insurance Corporation, United States
            SD
                                                          Department of Agriculture, Comptroller of the
                                                          Currency
                             2011 Small Business          Delaware DO - Delaware Community Development
 6/7/11     Newark, DE       Week Awards Event            Corporation, DelVal Business Finance Corporation,
                                                          Mid-Atlantic Business Finance Company
                             US SBA 2011 Awards           Wisconsin DO - SCORE Southeast WI, Reinhart
 6/3/11     Milwaukee, WI    Breakfast                    Boerner Van Deuren s.c., The Business Journal of
                                                          Greater Milwaukee, Associated Bank
                             SBA Small Business           Portland DO - Portland SCORE Chapter #11, U.S.
                             Week Celebration &           Bank, Wells Fargo, Umpqua Bank, Columbia Credit
                             Awards Ceremony              Union, West Coast Bank, Northwest Small Business
                                                          Finance Corporation, Evergreen Business Capital,
5/12/11     Portland, OR                                  Northwest Business Development Association,
                                                          Skanska USA Building, Columbia State Bank,
                                                          Genentech #35, Oregon Small Business Development
                                                          Center Network, KeyBank, Port of Portland, KBNP
                                                          Radio 1410, Oregon Business Magazine
                             2011 Small Business          Connecticut DO - Connecticut Small Business -Key to
5/24/11     New Haven, CT
                             Week Celebration             the Future
9/20/11 –                    Worland Business             Wyoming DO - Big West Auto Plex, Pascalite, Inc.,
            Worland, WY
 5/21/12                     Roundtables                  Northwest College
                             WOW "Women of the            Connecticut DO - Northwest CT Chamber of
9/22/11     Torrington, CT
                             World"                       Commerce
                             Small Business Awards        Washington DC DO - Tuvin and Tuvin, Ltd.
5/11/11     Arlington, VA
                             Event
                             New Mexico Small             New Mexico DO - Santa Fe Community College
            Albuquerque,
 6/1/11                      Business Week Awards         through New Mexico SBDC
            NM
                             Event 2011
                             Generating Opportunities     North Dakota DO - North Dakota Bankers
                             Under the Small Business     Association, Federal Reserve Bank of Minneapolis,
5/25/11     Bismarck, ND     Jobs Act of 2010             Federal Deposit Insurance Corporation, United States
                                                          Department of Agriculture - Rural Development,
                                                          Comptroller of the Currency
                             Matchmaking event for        Wisconsin DO - WI Housing and Economic
 6/3/11     Milwaukee, WI    small businesses and         Development Authority
                             lenders
            Los Angeles,     Small Business Week          Los Angeles DO - Los Angeles Area Chamber of
 6/7/11
            CA               Awards Luncheon              Commerce




                                                     46
         Appendix IX: Cosponsored and Other Activities April 1 - Sept.30, 2011


Event          Event          Name or Subject of                                Name of
Date          Location             Event                                      Cosponsor(s)
                             12th Annual Small              Colorado DO - Denver Public Library,
                             Business Resource Fair         Minority/Women Chambers’ Coalition, Denver
                                                            SCORE Chapter, The State of Colorado, Office of
                                                            Economic Development and International Trade -
                                                            Colorado Small Business Development Center,
8/18/11      Denver, CO
                                                            Colorado Office of Economic Development and
                                                            International Trade - Colorado Minority Business
                                                            Office, Mi Casa Resource Center Women, Inc. –
                                                            Women Business Center, Denver Office of Economic
                                                            Development - Division of Small Business Opportunity
9/27/11 -    Washington,     MED Week 2011                  HQ/GCBD - Minority Business Development Agency
 9/30/11        DC
                             Entrepreneurial and            Massachusetts DO - Plymouth Area Chamber of
6/17/11     Plymouth, MA     Educational Expo for           Commerce
                             Veterans
            San Francisco    SBA Women's                    HQ/OED - Visa & SCORE
             CA, Charlotte   Entrepreneurial Summit
            NC, New York     Series
 7/11-
               NY, Des
 12/11
              Moines IA,
            Providence RI,
              Toledo, OH
                             SBA/IRS                        North Carolina DO - Internal Revenue Service - North
 7/11-       World Wide
                             Telephone/Internet Tax         Carolina
 8/11          Web
                             Workshop
                             Annual SBA Small               Colorado DO - Denver Business Journal
7/20/11      Denver, CO      Business Newspaper
                             Insert
 7/11-                       Doing Business with the        Hawaii DO - State of Hawaii Department of
             Honolulu, HI
 12/11                       Government                     Transportation, Honolulu Minority Business Center
                             Small Business                 South Carolina DO - South Carolina Department of
                             Matchmaking:                   Commerce - Small & Existing Business Division,
                             Connecting Small               South Carolina Bankers Association, South Carolina
                             Business Owners with           Credit Union League, U.S. Department of Agriculture,
                             Capital Opportunities          Federal Reserve Bank of Richmond - Charlotte Branch,
8/31/11     Columbia, SC
                                                            University of South Carolina - Moore School of
                                                            Business - South Carolina Small Business
                                                            Development Center, South Carolina Chamber of
                                                            Commerce, National Federation of Independent
                                                            Business – South Carolina




                                                       47
         Appendix IX: Cosponsored and Other Activities April 1 - Sept.30, 2011


Event          Event          Name or Subject of                                 Name of
Date          Location             Event                                       Cosponsor(s)
           Albany, NY         2011 Albany                    Syracuse DO - New York Business Development
9/13/11                       Matchmaker                     Corporation, University at Albany thru the Small
                                                             Business Development Center, The Business Review,
                                                             The Albany-Colonie Chamber of Commerce, State
                                                             Farm Insurance Companies, New York State Contract
                                                             Reporter
           Greensboro,        Veterans Small Business        North Carolina DO - Fayetteville State Veteran
8/29/11    Raleigh,           Conference                     Business Outreach Center
           Asheville, NC
           Mission Viejo,     SBA High Tech - High           Santa Ana DO - City of Mission Viejo, Mission Viejo
9/29/11    CA                 Growth Small Business          Community Foundation
                              Day
           Washington, DC     Women's Business               HQ/ED - SCORE, AT&T
9/19/11-
                              Centers Annual Training
9/21/11
                              Conference
           Jacksonville, FL   Veterans Small Business        North Florida DO - University of North Florida SBDC,
8/11/11
                              Procurement Conference         University of North Florida PTAC
           Santa Barbara,     Sprit of Small Business        Los Angeles DO - Pacific Coast Business Time
8/18/11    CA                 Awards Luncheon 9th
                              Annual
           Bay County,        Veterans Small Business        North Florida DO - Veterans Business Outreach
8/24/11
           Okaloosa           Workshops                      Center, University of West Florida PTAC
9/13/11
           County,                                           Pensacola
9/20/11
           Escambia
9/21/11
           County, FL
           St. Louis, MO      Empowering Veterans,           St. Louis DO - BEGIN New Venture Center, Veterans
                              Inspiring Lives,               Business Resource Center
9/7/11
                              Improving Our
                              Community
           Cypress, CA        City of Cypress and the        Santa Ana DO - City of Cypress Economic
                              SBA Present Market             Development Department
9/22/11
                              Insights for Small
                              Business
           Barre, VT          Barre Small Business           Vermont DO - Vermont Women's Business Center,
9/14/11
                              Conference                     Barre Area Development, Inc., The Barre Partnership
           Billings MT,       Growing Economies in           HQ/ONAA - Federal Reserve Bank of San Francisco
8/20/11
           Bangor, ME, Lac    Indian Country: Taking
9/20/11
           du Flambeau, WI    Stock of Progress and
9/22/11
                              Partnership Workshops
           Scottsdale, AZ     "Tribal Tourism: An            HQ/ONAA - American Indian Alaska Native Tourism
9/11/11-
                              Economic Force in              Association
9/14/11
                              Indian Country"




                                                        48
           Appendix X: Legal Actions Summary April 1 - Sept. 30, 2011


                   Jointly
State   Program                    Alleged Violation(s) Prosecuted                      Legal Action
                    with
                              The seller of a gas station presented false tax       Seller sentenced to 2
                              information to SBA and the buyer in order to          weekends in jail, 12
                              inflate, artificially, the annual sales revenues of   months home detention,
                              the gas station. The buyer was utilizing an SBA       5 years’ probation, 100
 AL       BL        None
                              Express loan of $76,000 to purchase the business.     hours of community
                                                                                    service, and
                                                                                    $120,486.66 in
                                                                                    restitution.
                              The owner of a maintenance company is alleged         Owner indicted.
                              to have falsely obtained HUBZone certification
                              for his company. As a result of the owner’s
                  Army/CID,
 AL       GC                  misrepresentations, the company was awarded 28
                    DCIS
                              federal contracts valued at over $2.5 million,
                              which the company would not have been eligible
                              to receive without HUBZone status.
                              The president of three pizza restaurants falsely      Individual sentenced to
                              reported that neither he, nor his businesses, were    36 months in prison, 36
                              involved in any pending lawsuits or had any           months supervised
 CA       BL        None      business indebtedness. He made these                  release, and was
                              representations on three separate loan                ordered to pay
                              applications for SBA-guaranteed 7(a) loans in the     $2,374,266.44 in
                              amounts of $300,000, $488,000, and $250,000.          restitution.
                              A former SBA program manager used a                   The former SBA
                              government travel card to rent automobiles for        employee pled guilty
                              personal use and forged a supervisor’s signature      and was removed from
 DC       IA        None
                              on travel authorizations and vouchers. Because        the SBA.
                              of the employee’s false claims, the government
                              paid fraudulent travel costs totaling $7,919.68.
                              The owner of a design/remodeling business             Owner pled guilty and
                              misrepresented her company’s background and           was sentenced to 18
                              qualifications and created fictitious                 months in prison, 36
                              documentation of the company’s past                   months’ probation, 360
                  DHS/ICE,
                              performance in order to obtain an 8(a) contract       hours of community
                  GSA/OIG,
 DC       GC                  with ICE worth approximately $1.3 million.            service, and $389,738
                   DOJ/AT
                              Once the contract was obtained, the owner             in restitution.
                              submitted invoices to GSA that falsely overstated
                              the number of hours the company had worked on
                              the contract. The falsely inflated invoices
                              resulted in a loss to the government of $389,738.
                              A contractor falsely represented that his             Company agreed to pay
                              company’s principal office was located in a           the United States
 DC       GC        None      HUBZone. Based on this false representation,          $200,000 to resolve a
                              the company was awarded three contracts with          civil case.
                              the Department of the Navy.




                                               49
           Appendix X: Legal Actions Summary April 1 - Sept. 30, 2011


                   Jointly
State   Program                   Alleged Violation(s) Prosecuted                       Legal Action
                    with
                             Two individuals allegedly created an undisclosed       Two individuals
                             affiliate of a larger company in order to bid on       indicted.
                             government small business set-aside contracts.
 FL       GC        DCIS
                             The undisclosed affiliate obtained a $100 million
                             set-aside contract with the Department of Defense
                             for language instruction.
                             The owner of a day care facility conspired with        Owner pled guilty to
                             her sister to orchestrate what appeared to be the      criminal information.
                             sale of the school, via a 504 loan package worth
 GA       BL        FBI      $3,175,000. In reality, the owner never intended
                             to relinquish possession of the school and used
                             the proceeds of the loan to continue to operate the
                             business.
                             A former SBA lender relations officer                  Former lender
                             recommended selling 25 delinquent loans for            relations officer pled
                             substantially less than they were worth to his         guilty. Stepbrother
 IL       IA        FBI      stepbrother and his son-in-law. He did not             signed a pretrial
                             disclose to the SBA the true value of each loan or     diversion agreement.
                             the familial relationships when making the
                             recommendations.
                             The owner of a construction company allegedly          Company and four
                             falsified his service disability in order to falsely   individuals indicted.
                             claim that the construction company was a
                    DCIS,
                             certified Service-Disabled Veteran-Owned
 KS       GC      GSA/OIG,
                             (SDVO) small business. In addition, he, along
                   VA/OIG
                             with three other individuals, allegedly
                             misrepresented the relationship between the
                             construction company and a second firm.
                             An individual provided false statements on             Individual sentenced
                             applications for Hurricane Katrina disaster            to 60 months’
                             assistance. Although she owned the property that       probation and
                  HUD/OIG,
                             she claimed as her primary residence, the house        restitution of
                  DHS/OIG,
 LA       DL                 was considered unlivable prior to the storm. As a      $351,098.69.
                    FBI
                             result of her representations, she received
                             $219,000 in disaster loan funds from the SBA, as
                             well as assistance from FEMA and the Louisiana
                             Road Home Program.
                             A pastor was approved for an SBA disaster loan         Pastor indicted.
                             totaling $969,900 to rebuild his church, which
                             sustained severe damage as a result of Hurricane
 LA       DL        None     Katrina. It is alleged that the pastor used loan
                             proceeds to purchase real estate, luxury vehicles,
                             fine jewelry, designer fashions, and other items
                             for his personal use.




                                               50
           Appendix X: Legal Actions Summary April 1 - Sept. 30, 2011


                  Jointly
State   Program                  Alleged Violation(s) Prosecuted                      Legal Action
                   with
                             An individual submitted fraudulent documents to      Individual indicted and
                             the SBA as proof of repairs made to his rental       pled guilty.
 LA       DL      HUD/OIG    properties, which had been damaged by
                             Hurricane Katrina. He received multiple loan
                             disbursements totaling $103,100 from the SBA.
                             An individual created fraudulent receipts and        Individual sentenced to
                             documents to reflect repair expenses that she had    36 months’ probation
                  HUD/OIG,
                             supposedly sustained as a result of Hurricane        and immediate
                  DHS/OIG,
 LA       DL                 Katrina, but which she had not actually incurred.    restitution of $46,300.
                  USPS/OIG
                             As a result of the fraudulent documents, the SBA
                             increased her disaster loan from $85,400 to
                             $108,000.
                             An individual was approved for a $141,800 SBA        Individual indicted.
                             disaster loan based on damages to his home
                             caused by Hurricane Katrina. The individual
 LA       DL      HUD/OIG
                             allegedly submitted false receipts to the SBA
                             resulting in him receiving a loan disbursement of
                             $31,800.
                             The manager of a construction company and his        The manager of the
                             wife, the owner of a financial services company,     construction company
                             submitted fraudulent cancelled checks and false      and his wife, the owner
                             invoices in support a $126,300 SBA loan made         of the financial services
                             to their clients, the SBA borrowers. The             company, pled guilty.
                             borrowers received the loan to rebuild and repair
 LA       DL        None
                             their residence, which had been damaged by
                             Hurricane Ike. The borrowers hired the wife’s
                             company to negotiate and finalize the SBA loan
                             through a power of attorney agreement. The
                             husband’s company was responsible for the
                             repairs to the borrowers’ residence.
                             The vice president of a restaurant conspired with    Vice president of
                             the owner of a restaurant equipment outlet to        restaurant sentenced to
                             obtain a $417,000 SBA-guaranteed loan and use        30 months in prison, 3
                             some of the proceeds for personal use. The vice      years supervised
                             president falsely represented that $295,000 of the   release, and restitution
MD        BL        None     loan amount was to be used for renovating leased     of $150,000.
                             space; even though, he had already entered into
                             an agreement with the contractor for the work to
                             be performed for $145,000. The contractor
                             returned $97,000 of the loan proceeds back to the
                             borrower.
                             When applying for a $1.3 million SBA-                Owner convicted in a
                             guaranteed loan, the owner of a medical supply       jury trial.
 ME       BL        None
                             company falsely indicated on the SBA Form 912
                             that he had no prior criminal convictions.




                                              51
           Appendix X: Legal Actions Summary April 1 - Sept. 30, 2011


                   Jointly
State   Program                    Alleged Violation(s) Prosecuted                       Legal Action
                    with
                              The president of a title company conspired with        President sentenced to 1
                              others to pay kickbacks to brokers and realtors in     day in prison, 4 years of
 MI       BL        USSS
                              exchange for them utilizing her title company to       supervised release, and
                              conduct residential loan closings.                     an $8,000 fine.
                              The owner of a title company conspired with a          Owner sentenced to 12
                              loan broker, who recruited “straw buyers” to           months and 1 day in
                              obtain SBA loans. The owner, while employed            prison and joint
                              as a closing agent at another title company,           restitution of
 MI       BL        USSS
                              falsified loan disbursements and equity injections     $5,977,941.57.
                              on Housing and Urban Development Settlement
                              statements. The fraudulent loan proceeds were
                              then wire transferred to his employer’s company.
                              A businessman falsely stated that neither he, nor      Businessman pled
                              his company, had ever received an SBA loan. In         guilty.
 MI       BL        USSS
                              reality, he had previously received two SBA-
                              guaranteed Express Lines of Credit.
                              A former bank vice president engaged in                Former bank vice
                              approximately 15 fraudulent transactions               president pled guilty to
                  FDIC/OIG,
MO        BL                  involving both SBA and non-SBA loans, in order         a criminal information.
                     FBI
                              to divert funds to his own personal accounts. His
                              activity resulted in a loss of $451,763 to the bank.
                              A husband and wife obtained a                          Couple indicted.
                              $1 million Hurricane Katrina disaster business
 MS       DL        FBI       loan, and allegedly misused the proceeds,
                              including almost $390,000 to purchase a 43-foot
                              yacht.
                              An individual allegedly misrepresented the             Individual charged by
                  HUD/OIG,    location of his primary residence when applying        criminal information.
 MS       DL      DHS/OIG,    for Hurricane Katrina disaster assistance from
                   MSGA       multiple agencies. He was approved for an SBA
                              loan of $88,000, but only $10,000 was disbursed.
                              An individual claimed addresses on her                 Individual sentenced to
                              applications for disaster assistance following         36 months’ probation
                              Hurricane Katrina that were not her primary            and restitution of
                  HUD/OIG,    residence in an attempt to fraudulently receive an     $53,790.11. In
 MS       DL      DHS/OIG,    SBA disaster home loan of $43,000, as well as          addition, she repaid the
                   MSAO       other disaster related benefits.                       remaining $43,000
                                                                                     balance on her SBA
                                                                                     loan.




                                                52
            Appendix X: Legal Actions Summary April 1 - Sept. 30, 2011


                   Jointly
State   Program                   Alleged Violation(s) Prosecuted                      Legal Action
                    with
                             On his SBA loan application, an individual            Individual pled guilty.
                  HUD/OIG,   misrepresented the location of his primary
                  DHS/OIG,   residence in order to secure a $144,900 disaster
 MS       DL
                   MSAO      home loan. Using the same information, he also
                             received disaster benefits from FEMA and the
                             Mississippi Development Authority.
                             A mortgage broker, his business partner, and four     Two individuals pled
                             other individuals were involved in a scheme to        guilty to criminal
                             defraud the SBA Express loan program and three        informations. Four
                             lending institutions of $275,000 by obtaining nine    individuals entered pre-
 NC       BL       USPIS     SBA loans through the mail. The six individuals       trial diversion
                             applied for small business loans over the internet;   agreements.
                             never opened any actual businesses; used a
                             fictitious office address then used the SBA loan
                             proceeds for personal use.
                             A former branch manager of a bank assisted            Manager pled guilty to
                             individuals in securing loans by falsifying site      a criminal information
                             visit forms for their businesses. Of the ten loans    and sentenced to 18
                  IRS/CID,
 NJ       BL                 he brokered, two loans, totaling $150,000, were       months in prison, 36
                   ENJPD
                             SBA-guaranteed.                                       months’ probation, and
                                                                                   $199,059.50 in
                                                                                   restitution.
                             A member of an organized group of Korean              Individual indicted.
                             nationals obtained a $50,000 SBA Express loan
                  IRS/CID,
 NJ       BL                 and a $100,000 commercial loan allegedly using
                   ENJPD
                             the identity and financial information of another
                             business.
                             A leader of an organized group of Korean              Individual pled guilty.
                             nationals brokered 17 SBA-guaranteed loans,
                  IRS/CID,
 NJ       BL                 resulting in approximately $800,000 of loss to the
                   ENJPD
                             SBA, using false identities, documents, or
                             business names.
                             A construction company employee altered               Employee and owner
                             another company’s HUBZone certification to            both pled guilty.
                             make it appear to be an authentic HUBZone             Employee sentenced to
                             certification from the SBA. He submitted the          48 hours in prison, 2
                             falsified certificate to the government in order to   years unsupervised
NM        GC        FBI      obtain a government set-aside contract for his        release, and a $2,000
                             company. The owner of the company knew                fine; owner sentenced
                             about the fraudulent certification and encouraged     to 48 hours in prison, 1
                             the employee to press forward in order to obtain      year supervised release,
                             the contract.                                         and a $10,000 fine.




                                              53
           Appendix X: Legal Actions Summary April 1 - Sept. 30, 2011


                  Jointly
State   Program                  Alleged Violation(s) Prosecuted                         Legal Action
                   with
                             The president/CEO of a construction firm falsely        President/CEO found
                             claimed Service-Disabled Veteran-Owned                  guilty by a jury trial of
                             (SDVO) status for his company. Based on these           all six counts against
                  VA/OIG,
 NY       GC                 misrepresentations, the company was awarded             him.
                  Army/CID
                             one Veteran Owned (VO) set-aside contract in
                             the amount of $5,698,000 and three SDVO set-
                             aside contracts totaling $10,980,690.
                             When applying for a $196,300 Hurricane Rita             Individual sentenced to
                             disaster business loan, an individual                   15 months in jail and 4
                             misrepresented his criminal record and                  years supervised
                             submitted fictitious receipts and estimates to the      release.
                             SBA. Of the $196,300 loan, he used
 TX       DL        None
                             approximately $50,000 on actual business
                             property and expenses. The remainder was spent
                             to pay off a bankruptcy judgment, finance his
                             daughter’s college tuition, and buy a new car
                             and new furniture.
                             Three individuals allegedly conspired to                Three individuals
                             misrepresent the sources of equity injections and       indicted.
                             down payments relating to one SBA-guaranteed
 TX       BL        FBI
                             loan for $1.835 million to purchase a laundromat
                             and two commercial loans totaling over $1.3
                             million to purchase land.
                             An individual allegedly failed to disclose on the       Individual indicted.
                             SBA Form 912 that he had been arrested 22
 TX       BL      DHS/ATF    times. Based on this misrepresentation, he
                             received an SBA-guaranteed loan of $1,724,800
                             to build a restaurant and gas station.
                             An SBA paralegal forged an applicant’s                  Individual sentenced to
                             signature on loan documents, altered one of her         2 years and 1 day in
                             own personal checks by placing the applicant’s          prison, 3 years
                             name on it, and made false entries into an SBA          supervised release, and
                             database to support loan disbursement to her            $33,600 in restitution.
 TX       DL        None
                             own personal checking account. The applicant
                             had originally applied for a $33,600 SBA
                             disaster loan to replace personal property
                             damaged as a result of Hurricane Ike, but later
                             decided not to take the loan.
                             A real estate broker, his brother, and his property     All three individuals
                             manager were charged in an invoice scheme               indicted. Property
                             relating to approximately $1 million in SBA             manager pled guilty.
                             disaster loans. The property manager falsely
                             represented that Hurricane Ike had damaged a
 TX       DL      DHS/OIG    rental property belonging to the broker. In
                             reality, the rental property had been damaged by
                             a fire prior to Hurricane Ike. It is alleged that the
                             broker submitted about $680,000 in fraudulent
                             repair receipts and that his brother verified the
                             fictitious repairs to the SBA.

                                              54
            Appendix X: Legal Actions Summary April 1 - Sept. 30, 2011


                      Jointly
State   Program                       Alleged Violation(s) Prosecuted                     Legal Action
                       with
                                  A loan broker for a development company              Loan broker pled
                                  misrepresented the cash injection amounts on         guilty.
                                  three separate SBA loans totaling over $3.7
 TX        BL           FBI
                                  million. The broker provided the bank with
                                  copies of checks from the borrowers that were
                                  never cashed by the development company.
                                  A married couple, both former contracting            Couple indicted.
                     Army/CID,
                                  officials with the U.S. Army, allegedly accepted
                      IRS/CID,
 TX        GC                     over $100,000 from an 8(a) participant. In their
                     FBI, DCIS,
                                  official capacities, the couple had awarded
                       DOJ/AT
                                  multiple construction contracts to this 8(a) firm.
                                  The president of a financial services company        Both indicted.
                                  and his business partner allegedly recruited         Company president
                                  “straw” borrowers and used the borrowers’ names      pled guilty.
 UT        BL         IRS/CID
                                  and good credit to fraudulently obtain four SBA
                                  loans and two regular bank loans totaling
                                  $335,000.
                                  The owner of an information services company         Owner pled guilty.
                     DHS/OIG,     used falsified documents as a basis for his claim
                     DHS/ICE,     that he was a U.S. citizen when applying for 8(a)
 VA        GC
                     DOS/DSS,     status for his company. He also used the same
                     DOL/OIG      falsified documents to obtain a Department of
                                  Defense security clearance.

Program Codes: BL=Business Loans; DL=Disaster Loans; GC=Government Contracting and Section
8(a) Business Development; IA=Integrity Assurance

Joint-investigation Agency Acronyms: Army/CID=U.S. Army/Criminal Investigation Division;
DCIS=Defense Criminal Investigative Service; DHS/ATF=Department of Homeland Security/Alcohol,
Tobacco, Firearms, and Explosives; DHS/ICE=Department of Homeland Security/Immigration and
Customs Enforcement; DHS/OIG=Department of Homeland Security/OIG; DOJ/AT=Department of
Justice/Antitrust Division; DOL/OIG=Department of Labor/OIG; DOS/DSS=Department of
State/Diplomat Security Service; ENJPD= Englewood New Jersey Police Department; FBI=Federal
Bureau of Investigation; FDIC/OIG=Federal Deposit Insurance Corporation/OIG; GSA/OIG=General
Services Administration/OIG; HUD/OIG=Department of Housing and Urban Development/OIG;
IRS/CID=Internal Revenue Service/Criminal Investigations Division; MSAO= Mississippi State
Auditor’s Office; MSGA= Mississippi State Grant Authority; USPIS=United States Postal Inspection
Service; USPS/OIG=United States Postal Service/OIG; USSS=United States Secret Service;
VA/OIG=Department of Veterans Affairs/OIG.




                                                  55
                     Appendix XI: Results of External Peer Reviews


Section 5(a) of the IG Act provides the requirements for reporting the results of peer reviews in OIG
Semiannual Reports to Congress. The following information is provided in accordance with these
requirements.

Auditing

Generally Accepted Government Auditing Standards (GAGAS) issued by the Government Accountability
Office (GAO) require that audit organizations performing audits and attestation engagements in
accordance with GAGAS must have an external peer review performed by reviewers independent of the
audit organization being reviewed at least once every 3 years.

The OIG did not have a peer review conducted during this semiannual reporting period. The last peer
review of the OIG was conducted by the Department of Commerce OIG, which issued its final report on
December 18, 2009. The OIG received a rating of “Pass” in that report (federal audit organizations can
receive a rating of Pass, Pass with Deficiencies, or Fail). There are no outstanding recommendations
from previous peer reviews of the OIG.

The OIG did not conduct a peer review of another OIG during this semiannual reporting period. There
are no outstanding recommendations from previous peer reviews of other OIGs conducted by the OIG.

Investigations

Section 6(e)(7) of the IG Act, Attorney General Guidelines for Offices of Inspector General with
Statutory Law Enforcement Authority, and the CIGIE Quality Standards for Investigations require
external peer reviews of OIG investigative functions no less often than once every 3 years.

The OIG did not have a peer review conducted during this semiannual reporting period. The last peer
review of the OIG was conducted by the Department of Transportation OIG, which issued its final report
on May 7, 2009. The OIG was found to be in compliance with quality standards established by the
CIGIE and Attorney General guidelines (OIGs can be assessed as either Compliant or Noncompliant).
There are no outstanding recommendations from previous peer reviews of the OIG.

On April 14, 2011, we completed our review of the system of internal safeguards and management
procedures for the Investigative function of the Office of Inspector General at the U.S. Department of
Treasury. Our review found the OIG at Treasury to be in full compliance with the quality standards
established by the CIGIE and applicable Attorney General guidelines.




                                                 56
                 Appendix XII: Office of Inspector General Organization


The OIG is comprised of the Immediate Office of the Inspector General and four divisions: Auditing,
Investigations, Counsel, and Management and Policy.

The Auditing Division performs and oversees audits and reviews to promote the economical, efficient,
and effective administration of SBA programs and operations.

The Investigations Division manages a program to detect and deter illegal and improper activities
involving SBA programs, operations, and personnel. The criminal investigations staff carries out a full
range of traditional law enforcement functions. The security operations staff ensures that agency
employees and contractors have appropriate background investigations and security clearances to achieve
a high level of integrity in the agency’s workforce, and that loan applicants and other potential program
participants are of good character.

The Counsel Division provides legal and ethics advice to all OIG components; represents the OIG in
litigation arising out of or affecting OIG operations; assists with the prosecution of criminal, civil, and
administrative enforcement matters; processes subpoenas; responds to Freedom of Information and
Privacy Act requests; and reviews and comments on proposed agency policies, regulations, legislation,
and procedures.

The Management and Policy Division provides business support (e.g., budget/financial management,
human resources, information technology, and procurement) for the various OIG functions; coordinates
preparation of the OIG’s Semiannual Report to Congress, Report on the Most Serious Management and
Performance Challenges Facing SBA, and other OIG-wide reports and documents; and operates the
OIG’s Hotline.

The OIG is headquartered in Washington, DC, and has field staff located in Atlanta, GA; Chicago, IL;
Dallas/Fort Worth, TX; Detroit, MI; Denver, CO; Herndon, VA; Houston, TX; Kansas City, MO;
Los Angeles, CA; Miami, FL; New Orleans, LA; New York, NY; Philadelphia, PA; Tacoma, WA; and
Washington, DC.

An organization chart for the OIG is shown on page 58.




                                                    57
This page intentionally left blank.




             58
                            Appendix XIII: Office of Inspector General Organization Chart



                                                     Inspector
                                                      General
                                                                                   Counsel Division
                                                   Deputy Inspector
                                                       General




Auditing Division                                Investigations Division                          Management and
                                                                                                   Policy Division



    Credit Programs Group                                 Security Operations


    Business Development
       Programs Group                                       Eastern Region


    Financial Management
          & IT Group                                        Central Region


      Disaster Assistance
            Group                                          Southern Region



                                                           Western Region




                                                           59
                    Make A Difference!

To promote integrity, economy, and efficiency, we encourage you to report
    instances of fraud, waste, or mismanagement to the OIG Hotline.*



                                    Online:
            http://www.sba.gov/office-of-inspector-general/2662



                                        Call:
                            1-800-767-0385 (Toll Free)




                           Write or Visit:
                       U.S. Small Business Administration
                           Office of Inspector General
                             Investigations Division
                        409 Third Street, SW (5th Floor)
                             Washington, DC 20416



  In accordance with Sections 7 and 8L(b)(2)(B) of the Inspector General’s Act, confidentiality of
  a complainant’s personally identifying information is mandatory, absent express consent by the
  complainant authorizing the release of such information.
